<html>
<title> - H.R. 919, H.R. 938, H.R. 1278, H.R. 2240, H.R. 2489, H.R. 3411, AND H.R. 3440</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
 H.R. 919, H.R. 938, H.R. 1278, H.R. 2240, H.R. 2489, H.R. 3411, AND 
                               H.R. 3440

=======================================================================

                           LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       Tuesday, January 24, 2012

                               __________

                           Serial No. 112-91

                               __________

       Printed for the use of the Committee on Natural Resources








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

72-506 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV


                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                














                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, January 24, 2012........................     1

Statement of Members:
    Benishek, Hon. Dan, a Representative in Congress from the 
      State of Michigan..........................................    20
        Prepared statement on H.R. 3411..........................    21
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     5
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey, Oral statement on H.R. 2489.................    21
    Tsongas, Hon. Niki, a Representative in Congress from the 
      State of Massachusetts, Oral statement on H.R. 2240........    19

Statement of Witnesses:
    Baacke, Adam, Assistant City Manager and Director of Planning 
      and Development, City of Lowell, Massachusetts.............    51
        Prepared statement on H.R. 2240..........................    53
    Cleaver, Hon. Emanuel, a Representative in Congress from the 
      State of Missouri, Oral statement on H.R. 938..............    10
    Fischer, David Hackett, University Professor and Earl Warren 
      Professor of History, Brandeis University..................    64
        Prepared statement on H.R. 2489..........................    66
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona.................................................    17
        Prepared statement on H.R. 3440..........................    18
    Fountain, Edwin L, Director, World War I Memorial Foundation.    41
        Prepared statement on H.R. 938...........................    43
    Franks, Hon. Trent, a Representative in Congress from the 
      State of Arizona, Oral statement on H.R. 919...............     6
    May, Peter, Associate Regional Director, National Capital 
      Region, National Park Service, U.S. Department of the 
      Interior...................................................    36
        Prepared statement on H.R. 938...........................    37
        Prepared statement on H.R. 1278..........................    38
        Prepared statement on H.R. 2240..........................    39
        Prepared statement on H.R. 2489..........................    40
    Poe, Hon. Ted, a Representative in Congress from the State of 
      Texas......................................................    11
        Prepared statement on H.R. 938...........................    13
    Ratcliffe, Bob, Deputy Assistant Director, Renewable 
      Resources & Planning, Bureau of Land Management, U.S. 
      Department of the Interior.................................    27
        Prepared statement on H.R. 919...........................    28
        Prepared statement on H.R. 3411..........................    30
        Prepared statement on H.R. 3440..........................    31
    Recce, Susan, Director of Conservation, Wildlife and Natural 
      Resources, National Rifle Association......................    33
        Prepared statement on H.R. 919, H.R. 3440................    33
    Rimensnyder, Nelson F., Historian, The Association of the 
      Oldest Inhabitants of the District of Columbia.............    44
        Prepared statement on H.R. 938...........................    46
    Sullivan, Hon. John, a Representative in Congress from the 
      State of Oklahoma..........................................    14
        Prepared statement on H.R. 1278..........................    16

Additional materials supplied:
    Arizona Game and Fish Department, Letter submitted for the 
      record on H.R. 919.........................................     8
    Civil War Trust, Letter submitted for the record on H.R. 2489    24
    Crossroads of the American Revolution Association, Letter 
      submitted for the record on H.R. 2489......................    25
    National Park Conservation Association, Letter submitted for 
      the record on H.R. 2489....................................    26




LEGISLATIVE HEARING ON H.R. 919, TO PROVIDE FOR THE CONVEYANCE 
        OF CERTAIN PUBLIC LAND IN MOHAVE VALLEY, MOHAVE COUNTY, 
        ARIZONA, ADMINISTERED BY THE BUREAU OF LAND MANAGEMENT 
        TO THE ARIZONA GAME AND FISH COMMISSION, FOR USE AS A 
        PUBLIC SHOOTING RANGE. ``MOHAVE VALLEY LAND CONVEYANCE 
        ACT OF 2011''; H.R. 938, TO ESTABLISH A COMMISSION TO 
        ENSURE A SUITABLE OBSERVANCE OF THE CENTENNIAL OF WORLD 
        WAR I AND TO DESIGNATE MEMORIALS TO THE SERVICE OF MEN 
        AND WOMEN OF THE UNITED STATES IN WORLD WAR I. ``FRANK 
        BUCKLES WORLD WAR I MEMORIAL ACT''; H.R. 1278, TO 
        DIRECT THE SECRETARY OF THE INTERIOR TO CONDUCT A 
        SPECIAL RESOURCES STUDY REGARDING THE SUITABILITY AND 
        FEASIBILITY OF DESIGNATING THE JOHN HOPE FRANKLIN 
        RECONCILIATION PARK AND OTHER SITES IN TULSA, OKLAHOMA, 
        RELATING TO THE 1921 TULSA RACE RIOT AS A UNIT OF THE 
        NATIONAL PARK SYSTEM, AND FOR OTHER PURPOSES; H.R. 
        2240, TO AUTHORIZE THE EXCHANGE OF LAND OR INTEREST IN 
        LAND BETWEEN LOWELL NATIONAL HISTORICAL PARK AND THE 
        CITY OF LOWELL IN THE COMMONWEALTH OF MASSACHUSETTS, 
        AND FOR OTHER PURPOSES. ``LOWELL NATIONAL HISTORICAL 
        PARK LAND EXCHANGE ACT OF 2011''; H.R. 2489, TO 
        AUTHORIZE THE ACQUISITION AND PROTECTION OF NATIONALLY 
        SIGNIFICANT BATTLEFIELDS AND ASSOCIATED SITES OF THE 
        REVOLUTIONARY WAR AND THE WAR OF 1812 UNDER THE 
        AMERICAN BATTLEFIELD PROTECTION PROGRAM. ``AMERICAN 
        BATTLEFIELD PROTECTION PROGRAM AMENDMENTS ACT OF 
        2011''; H.R. 3411, TO MODIFY A LAND GRANT PATENT ISSUED 
        BY THE SECRETARY OF THE INTERIOR; AND H.R. 3440, TO 
        PROVIDE FOR CERTAIN OVERSIGHT AND APPROVAL ON ANY 
        DECISIONS TO CLOSE NATIONAL MONUMENT LAND UNDER THE 
        JURISDICTION OF THE BUREAU OF LAND MANAGEMENT TO 
        RECREATIONAL SHOOTING, AND FOR OTHER PURPOSES. 
        ``RECREATIONAL SHOOTING PROTECTION ACT.''
                              ----------                              


                       Tuesday, January 24, 2012

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Tipton, Amodei, Grijalva, 
Holt, Tsongas, and Garamendi.
    Also Present: Representative Benishek
    Mr. Bishop. All right. The hearing will come to order. The 
Chair notes the presence of a quorum. The Subcommittee on 
National Parks, Forests and Public Lands is meeting today to 
hear testimony on seven bills. Under the rules, the opening 
statements are limited to the Chairman and Ranking Member. 
However, I ask unanimous consent to include any Member's 
opening statement in the hearing record if submitted to the 
clerk by the close of business today.
    [No response.]
    Mr. Bishop. So, hearing no objection, it will be so 
ordered.
    I also want to thank our colleagues and the other witnesses 
who have agreed to testify today on these seven bills that will 
be before us.
    Today we are going to review bills that address unique land 
management issues with the Bureau of Land Management, as well 
as the Park Service. I understand we have a few Members with 
scheduling conflicts, so we will do our best to try and 
accommodate those. Any of the Members that need to leave after 
they provide their testimony are welcome to do so, but you are 
also welcome to join us here on the dais afterwards to 
participate. So I ask unanimous consent at this time to allow 
them to stay and participate with us on the dais.
    [No response.]
    Mr. Bishop. And, without objection, so ordered.
    In order to accommodate those Members with the tight 
schedules, I am going to not make a lengthy opening statement. 
But I do want to make one comment about one of the bills of 
which I am a cosponsor, the ``Recreational Shooting Protection 
Act.''

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. This bill is another in a series of our trust-
but-verify approaches when dealing with the Administration.
    It is no secret to me and many of my colleagues that this 
Administration shows itself hostile to the individual rights 
guaranteed in the Second Amendment. From tactics from the 
Justice Department's Fast and Furious calamity to the State 
Department's prevention of the re-importation of surplus M-1 to 
the appointment of the anti-gun advocates to our judiciary, BLM 
now is looking for reasons to prevent target shooting on public 
lands. We have seen what this Administration thinks of the 
Second Amendment.
    It is an election year. It appears the Administration wants 
to put off a lot of decisions until after votes are in. They 
know that the wider scale of closure of public lands for 
recreational shooting would not sit well with Western 
electorate who enjoy this historic and traditional and 
legitimate activity on our public lands.
    The trouble is I am not sure the Obama Administration would 
have backed down and abandoned their anti-sportsman policy were 
it not an election year. And there appears to be a real 
penchant by this Administration to manage the use of public 
lands based on personal preference, rather than multiple use, 
which is mandated by the law.
    Well, I am glad that the BLM will now abandon--for now will 
abandon--this ill-conceived policy. My colleagues and I want to 
make sure it is not revisited at a later date. If it is not a 
good time to do it in an election year, it is not a good time 
to do it at all.
    With that--and again, in an effort to keep this as short as 
possible for the sake of my colleagues--I am going to stop 
right now, and will recognize the Ranking Member for any 
opening remarks he would like to make at this time.
    [The prepared statement of Mr. Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Today we are reviewing three bills that address unique land 
management issues with the Bureau of Land Management (BLM) and four 
with the Park Service. I understand we have a few Members with 
scheduling conflicts so we'll do our best to accommodate those folks. 
Any of the Members that need to leave after they provide their 
testimony are welcome to do so. They are also welcome to join us here 
on the dais afterwards to participate. I ask Unanimous Consent at this 
time to allow it. Without objection, so ordered.
    In order to accommodate those Members with tight schedules, I will 
forego a lengthy opening statement and just make a couple brief 
comments about one of the bills of which I am cosponsor, H.R. 3440--The 
Recreational Shooting Protection Act.
    This bill is another in a series of our trust but verify approaches 
when dealing with this administration. It is no secret to me and many 
of my colleagues that this administration is hostile to the individual 
right guaranteed in the Second Amendment. From the tactics and 
leadership at DOJ that brought us the ``Fast and Furious'' calamity and 
the State Department's prevention of the re-importation of old surplus 
M-1 Garands to the appointment of anti-gun advocates to our judiciary 
and now BLM looking for reasons to prevent target shooting on our 
public lands, we have seen what this administration thinks of the 
Second Amendment.
    This is an election year and it appears that the Administration 
wants to put off a lot of decisions until after the votes are in. They 
know that the wide scale closure of our public lands for recreational 
shooting would not sit well with a Western electorate that enjoys this 
historic, traditional and legitimate activity on our public lands. The 
trouble is, I am not sure the Obama administration would have backed 
down and abandoned their anti-sportsmen policy were it not an election 
year. There appears to be a real penchant by this administration to 
manage the use of our public lands based on personal preference rather 
than the multiple uses mandated by law. While I am glad that the BLM 
will for now abandon their ill-conceived policy, my colleagues and I 
want to make sure it is not revisited at a later date. If it's not a 
good time to do it in an election year, it's not a good time to do it 
at all.
    Again, in an effort to keep this short for the sake of my 
colleagues, I will stop there and I now recognize the Ranking Member 
for any opening remarks he would like to make at this time.
                                 ______
                                 

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. And I won't be as 
courteous as yours; I have a rather lengthy opening statement. 
But I will try to run through it quickly. Let me first thank 
our witnesses and our colleagues today who have taken the time 
to testify on these seven bills.
    Before we begin I want to take a moment to honor the life 
of Margaret Anderson, the Park Service ranger who recently lost 
her life at Mount Rainier National Park. It is a tragedy and a 
reminder of the risk to our law enforcement officers and the 
bravery in which they serve us.
    Today the Subcommittee will consider seven bills. I am 
pleased that we are considering my colleague, Congressman 
Holt's, battlefield protection legislation, along with 
Congresswoman Tsongas's legislation related to the Lowell 
Historic Park. I am eager to learn more from the Bureau of Land 
Management about the need for Congressman Frank's bill to 
complete a land conveyance in Mohave County, and look forward 
to better understanding the motivation behind Congressman 
Flake's legislation dealing with recreation shooting in 
national monuments.
    And I am confused, quite frankly, by the approach 
Congressman Flake takes to address the long-standing debate 
over recreational shooting in Arizona. I can't count the number 
of times I have heard from my colleagues on the other side of 
the dais to praise the wisdom of local land managers and 
celebrate local involvement in land management decisions. Now 
we have a bill to centralize that decision-making in 
Washington, D.C.
    The issue of recreational shooting in Arizona is not a new 
one. In 2002, the BLM engaged the Mo Udall Institute for 
Environmental Conflict Resolution in an effort to find common 
ground on the issue of recreational shooting in the Tucson 
Basin. A final report was issued in 2006 that included nearly 4 
years of public engagement on behalf of all local Federal land 
management agencies and Arizona Game and Fish. As this broader 
conversation was concluding, the Ironwood National Forest 
initiated the formal resource management plan process.
    In response to a number of comments received on the draft 
resource management plan, the BLM went the extra effort to re-
examine where there might be areas for shooting activities. The 
22-page analysis evaluated a range of topics through the use of 
GIS analysis and on-site visits. In the end they decided that 
no area existed that could safely support recreational shooting 
in the monument.
    What we need to do is keep in mind that the Ironwood 
National Forest Monument isn't the only place in Tucson that 
can access recreational shooting. Based on the information 
provided by Arizona Game and Fish, there are nine shooting 
ranges in the Tucson area, including the Pima County Southeast 
Regional Park shooting range and the Three Points Shooting 
Range. Further, U.S. Forest Service has worked with the Tucson 
Rod and Gun Club to identify a new shooting range in the 
Redington Pass area.
    The point I am making here is that Congressman Flake's bill 
would ignore all of these local discussions, and instead give 
one person within the Department of the Interior the ability to 
make local closures for six months. Congress would have to 
enact laws to make them longer.
    Changing gears now is, I believe--I want to--changing those 
gears now--and I want to look forward also to Congressman Poe's 
legislation on the World War I Memorial, and hearing from Mr. 
Rimensnyder, who is opposed to this legislation.
    Finally, Congresswoman Eleanor Holmes Norton of the 
District of Columbia is attending another hearing affecting her 
district and has asked me to submit her written testimony for 
the record. I note that Congresswoman Norton strongly opposes 
H.R. 938 because the bill would confiscate the District of 
Columbia's war memorial which was authorized by Congress to 
honor more than 26,000 District of Columbia World War I 
veterans, including the 499 men and women who lost their lives, 
and was built by public subscription of District residents and 
school children. These veterans served without a vote in 
Congress that sent them to war.
    Again, I want to thank the witnesses. I look forward to 
their testimony. And with that I yield back, Mr. Chairman.
    Mr. Bishop. Thank you, Mr. Grijalva. I appreciate it. At 
this time we will turn to our first panel, who will be the 
Members, our colleagues here, who are going to testify on the 
bills that they have. We will simply go down the row, if that 
is OK with you.
    Once again, after you are done, if you would like to join 
us on the dais please feel free to do so. If you need to go to 
some other meeting, have at it.
    So, Mr. Franks, if we can start with you on H.R. 919, the 
conveyance of public lands in the Mohave Valley.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Thank you, to our witnesses today who have taken the time to 
testify on these seven bills. Before we begin that, I want to take a 
moment to honor the life of Margaret Anderson, the Park Service ranger 
who recently lost her life at Mount Rainier National Park. It is a 
tragedy and a reminder of the risks taken by our law enforcement 
offices and the bravery with which they serve.
    Today the subcommittee will consider seven bills. I am pleased that 
we are considering my colleague Congressman Holt's Battlefield 
Protection legislation along with Congresswoman Tsongas' legislation 
related to Lowell National Historical Park.
    I am eager to learn more from the Bureau of Land Management about 
the need for Congressman Franks' bill to complete a land conveyance in 
Mohave County and look forward to better understanding the motivation 
behind Congressman Flake's legislation dealing with recreational 
shooting in national monuments and.
    I'm confused by the approach Congressman Flake takes to address the 
longstanding debate over recreational shooting in Arizona.
    I can't count the number of times I have heard my colleagues on the 
other side of the dais praise the wisdom of local land managers and 
celebrate local involvement in land management decisions.
    Now we have a bill to centralize decision-making to Washington, 
D.C.
    The issue of recreational shooting in Arizona is not a new one. In 
2002, the BLM engaged the Mo Udall Institute for Environmental Conflict 
Resolution in an effort to find common ground on the issue of 
recreational shooting in the Tucson Basin.
    A final report was issued in 2006 that included nearly four years 
of public engagement on behalf of all local federal land management 
agencies and Arizona Game and Fish.
    As this broader conversation was concluding, the Ironwood Forest 
National initiated their formal resource management plan process. In 
response to the number of comments received on the Draft Resource 
Management plan, the BLM went to the extra effort to re-examine where 
there might be areas for shooting activities.
    The 22-page analysis evaluated a range of topics through the use of 
GIS analysis and on-site visits. In the end, they decided that no areas 
existed that could safely support recreation shooting in the monument.
    What we need to keep in mind is that the Ironwood Forest National 
Monument isn't the only place people in Tucson can access for 
recreational shooting.
    Based on information provided by the Arizona Game and Fish, there 
are nine shooting ranges in the Tucson area including the Pima County 
Southeast Regional Park Shooting Range and the Three Points Shooting 
Range. Further, the U.S Forest Service has worked with the Tucson Rod 
and Gun Club to identify a new shooting range in the Redington Pass 
area.
    The point I am making here is that Congressman Flake's bill would 
ignore all of these local discussions and instead give one person 
within the Department of the Interior the ability to make local 
closures for six months. Congress would have to enact laws to make them 
longer.
    Changing gears now, I look forward to learning more about 
Congressman Poe's legislation on World War I Memorials and hearing from 
Mr. Rimensnyder who is opposed to this legislation.
    Finally, Congresswoman Eleanor Holmes Norton of the District of 
Columbia is attending another hearing affecting her district and has 
asked me to submit her written testimony for the record.
    I note that Congresswoman Norton strongly opposes H.R. 938, because 
the bill would confiscate the District of Columbia War Memorial, which 
was authorized by the Congress to honor the more than 26,000 District 
of Columbia World War I veterans, including the 499 men and women who 
lost their lives, and was built by public subscription of District 
residents and school children. These veterans served without a vote in 
the Congress that sent them to war.
    Again, thank you to our witnesses.
                                 ______
                                 

    STATEMENT OF THE HON. TRENT FRANKS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Franks. Well, thank you, Mr. Chairman and Members of 
this Committee. I happen to be one of those that will have to 
leave after the testimony for a mark-up in the Judiciary 
Committee, and I am just grateful to be able to testify on H.R. 
919 this morning, the ``Mohave Valley Land Conveyance Act.''
    I introduced this legislation, Mr. Chairman, on behalf of 
constituents in Mohave Valley, Arizona. My bill provides for 
the conveyance of 315 acres of public land to the Arizona Game 
and Fish Department for use as a public shooting range. The 
Mohave County shooting range proposal has been under 
consideration now and evaluation for more than 13 years. 
Arizona's Mohave County has experienced rapid growth over the 
last few years, and traditional locations for target shooting 
are now too close to populated areas for safety.
    Mr. Chairman, there is a need to designate a centralized, 
multi-purpose shooting range location in Mohave County to 
promote safe hunting and shooting practices, to provide the 
public with safe shooting areas, to support the hunter 
education program, and encourage hunters to become more 
proficient with their equipment.
    Mr. Chairman, perhaps even more importantly, there is also 
a major need for a central facility for persons training in the 
use of firearms such as local law enforcement and security 
personnel to achieve and maintain firearms qualifications. Some 
of these officers are forced to travel long distances now in 
order to practice and improve their marksmanship skills, which 
are central and a major component of their job requirements.
    Mr. Chairman, the shooting range project would consist of 
seven different types of ranges, including a trap and skeet 
range, sports clay range, a police rifle range, pistol bays and 
range, a public range, and an archery range.
    Throughout the evaluation process I, along with the Arizona 
Game and Fish Department and the Bureau of Land Management, 
have taken the concerns of the neighboring Hualapai and Fort 
Mohave tribes very seriously. The Mohave shooting range 
proposal contains a rigorous set of standards and criteria that 
would apply to any facility that would be built. And it would 
address and significantly reduce the visual and sound issues 
raised by the tribes.
    The final BLM record of decision specifically states that 
any plan of development shall include mitigation measures to 
limit the footprint or the area of ground disturbance, optimize 
noise reduction, restrict operating hours to coincide with 
tribal practice of traditional cultural activities and 
coordinate with tribes to educate the public about the cultural 
significance of the nearby tribal land.
    The BLM used an alternative dispute resolution process 
facilitated by the U.S. Institute for Environmental Conflict 
Resolution in an effort to resolve differences over boundary 
and the effect of the proposed shooting range. During the ADR 
process 18 possible locations, alternative locations, were 
considered. After several years of effort, no viable 
alternative was identified, and the consulted tribes were 
unable to accept any alternative shooting range location within 
the entire Mohave Valley as suitable.
    Mr. Chairman, the BLM is tasked with weighing all concerns 
from all groups in making decisions affecting resources on 
public lands. The BLM has indeed accomplished this during years 
of tribal consultation and the subsequent release of the record 
of decision approving the land transfer. Therefore, some may 
question whether this legislation is even necessary. However, I 
would submit to you that it has been two full years now since 
the final record of decision was released. Furthermore, the 
process may continue to be held up because of the frivolous 
lawsuits.
    Mr. Chairman, this legislation is needed to move the 
process to completion and get shovels in the ground. And so, I 
would just thank you again for this opportunity to testify 
before you on H.R. 919, and I would also ask that a letter of 
support from the Game and Fish Department be submitted for the 
record. And I trust the Members of this Committee will 
recognize the need for this range and provide support for this 
long-overdue legislation. And I thank you all very much, sir.
    Mr. Bishop. Thank you, Congressman. The letter will be 
submitted to the record, without objection.
    [The letter from the Arizona Game and Fish Department 
follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Bishop. We appreciate your testimony. Once again, if 
you would like to stay, feel free. If you need to go, I 
understand.
    Mr. Franks. I do have a mark-up in Judiciary, Mr. Chairman. 
Thank you very much.
    Mr. Bishop. And you actually think that is more important 
than us?
    [Laughter.]
    Mr. Franks. I don't know what possessed me here.
    Mr. Bishop. I don't, either. I appreciate it.
    Mr. Cleaver, I understand you are here as a substitute 
witness right now to speak on, I believe--I don't know which 
one--938? OK. Recognized for five minutes, please.

  STATEMENT OF THE HON. EMANUEL CLEAVER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mr. Cleaver. Thank you, Mr. Chairman. And to you and 
Ranking Member Grijalva, I appreciate this. And I will try to 
do it as quickly as possible.
    Judge Poe and I introduced H.R. 938, and I need to explain 
some things so that the Committee will have a full 
understanding of what has been done, and what we are trying to 
do.
    In 1920 the City Council of Kansas City, Missouri approved 
an ordinance to begin the planning for a commemorative 
structure for World War I. In 1921, November 1, 1921, a site 
dedication drew 100,000 people, including all of the leaders of 
the Allied Forces. General John Pershing represented the United 
States. We had the leaders from France, Great Britain, Belgium, 
and Italy all there among 100,000 people.
    It took a few more years before the money was raised, a 
substantial amount raised from children who put a project 
together over a three-year period to raise money to build this 
majestic structure. And, as you can see, this is not some 
little deal. This is a major structure. And if anybody has ever 
flown into Kansas City, you can't land without seeing this from 
any direction you fly into Kansas City.
    So, when I was mayor of Kansas City, we put forth before 
the people a measure so that we could repair the museum. This 
is above the fold, Kansas City Star newspaper. On the night of 
the election we won the election, put $45 million into the 
museum in 1997. The museum and the monument are now in top 
shape. It is the only museum in the world solely dedicated to 
World War I.
    And so, what we were trying to do, Congressman Poe and I, 
is to prepare for the commemoration of the war in 2014. We only 
have two years left. And so we were trying to get this done 
where we would have a commission that would begin the planning 
for a duplication of what happened in 1921.
    Someone then sent out an email yesterday saying that there 
was an attempt to place the D.C. memorial under Kansas City. It 
was not true yesterday. It was not true when we introduced the 
bill. And it was designed to kill the bill. Kansas City has no 
interest in controlling the D.C. monument at all. We have had 
our commitment to maintain this monument without any Federal 
funds. We haven't asked for any, we don't plan to ask for any. 
We are asking that we have this bill approved so that we can 
begin the process of planning for the 100-year commemoration of 
the war.
    Finally, Mr. Chairman, what we hope we can do is to get 
this bill moving. It has already been approved by the House 
with only one dissenting vote. And I might add that the person 
who voted against it on suspension was one of the sponsors. And 
that was probably the first time that has ever happened in the 
history of the House of Representatives.
    But we think that this is something that is extremely 
important. It gives us the chance to have the Nation remember 
what happened in World War I. Thank you.
    Mr. Bishop. Thank you, Congressman Cleaver. I appreciate 
that. Once again, if you would like to stay with us through the 
remainder of this hearing, you may. If you have other 
engagements----
    Mr. Cleaver. I have another engagement. It is not more 
important.
    [Laughter.]
    Mr. Bishop. All right. I will accept that if you check your 
cosponsors next time here.
    Let us turn to Mr. Poe, next on the line, to talk about the 
same issue. Mr. Poe, you are also recognized for five minutes.

  STATEMENT OF THE HON. TED POE, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Poe. Thank you, Mr. Chairman, Ranking Member. I 
appreciate the opportunity to talk about H.R. 928, as amended.
    This bill does three things, and I want to give a quick 
background on the purpose of this bill. It has to do with--it 
is called the Frank Buckles Bill, World War I bill, because 
Frank Buckles was the last lone survivor, last doughboy that 
represented the United States in World War I.
    He lied to get into the Army, he was 16. He convinced a 
recruiter he was 21. He drove an ambulance in France, rescued 
other doughboys. Came back to America. When the great World War 
II started, he was in the Philippines. He was captured by the 
Japanese, held as a prisoner of war for 3-1/2 years, and 
finished out the rest of his 110 years in West Virginia, 
driving a tractor until he was 107.
    One of his desires before he died, as he communicated to 
me, other Members of Congress, and some of our Senators--
specifically Roy Blunt and Senator Rockefeller--was to see a 
memorial for all of the World War I troops that served in that 
Great War. They are all gone. They have all died, except one, I 
believe, from Australia. But all the Americans have died. And 
he is the lone survivor.
    On the Mall there is a memorial, the District of Columbia 
memorial for people who served from the District of Columbia. 
It is on the National Mall. It is the only memorial on the 
National Mall that I know of that represents a small or one 
unique portion of America.
    In the last century there were four great wars, and we 
built memorials to all of them in reverse order: the Vietnam 
Memorial; the Korean Memorial; the World War II Memorial. But 
there is no memorial for all that served in the great World War 
I.
    In fact, many people don't even know anything about World 
War I. I asked a person not too long ago what he knew about 
World War I and he said, ``Is that where Snoopy fought the Red 
Baron?''
    Unfortunately, history is being forgotten. And one way we 
can remember our heritage is to put the fourth memorial on the 
Mall, not to dishonor D.C., but to expand D.C.
    In fact, the memorial maybe should be added--it is going to 
be the District of Columbia and National Memorial for World War 
I. We should mark the fact that it was built by D.C. residents. 
We should mark the fact that it was built and paid for by 
school children in the District of Columbia, and not dishonor 
it, but embolden it to include everyone who served in the great 
World War I. They are all dead, they don't have any lobbyists, 
it is just up to Congress to authorize it.
    So, this bill will do three things. First of all, it 
rededicates the D.C. memorial on the Mall as the ``District of 
Columbia National World War I Memorial.'' Of course D.C. should 
be left in the name, because it does honor those veterans that 
served and those that died. There is no reconstruction that 
needs to be done to it. After all, the Park Service is taking 
care and maintaining the D.C. memorial here.
    The second thing the bill does is dedicates, or 
rededicates, the Liberty Memorial of Kansas City as the 
National World War I Museum and Memorial. As Congressman 
Cleaver pointed out, this memorial is the only public museum 
that specifically dedicates its history to World War I. And it 
is great that it does that. It needs the national recognition.
    The bill does a third and separate thing. As Congressman 
Cleaver pointed out, we are coming up on the 100th anniversary 
of the beginning of the great World War I. The United States 
basically has done little, if anything, to recognize that 
Americans fought in World War I; 4 million fought, 114,000 of 
them died. Many of them died from the flu that they got in 
France and came back home.
    We need to have the commission set up to honor World War I, 
not to control the monument and the memorial in D.C., not to 
control the Liberty Museum in Kansas City, but to make sure 
America remembers those troops that served, like Frank Buckles, 
in World War I.
    Mr. Chairman, it is one thing to die in battle for your 
country. But the worst casualty of war is to be forgotten. And 
we have the obligation to erect this memorial and honor D.C. 
and national heroes that served almost 100 years ago. I yield 
back.
    Mr. Bishop. Thank you, Congressman Poe. I appreciate, once 
again, your testimony, and extend the invitation to stay with 
us, if you can or desire to do so. But if you have other 
commitments, we understand that one as well.
    Mr. Poe. I need to go to Judiciary and offset Franks's 
vote.
    [Laughter.]
    Mr. Poe. But I would like to submit my entire testimony in 
writing to the Committee.
    Mr. Bishop. We are going to have a long talk with Lamar 
Smith here. All right. Thank you, and we will accept your 
written testimony, as well.
    [The prepared statement of Mr. Poe follows:]

         Statement of The Honorable Ted Poe, a Representative 
                  in Congress from the State of Texas

    Thank you for inviting me here to speak about H.R. 938, the Frank 
Buckles WWI Memorial Act. I'm glad to be joined by Rep. Cleaver in 
introducing this bill and thankful for the 42 of my colleagues that 
have signed onto the bill so far.
    Before I get into a summary of the bill, I'd like to talk about its 
namesake, Mr. Buckles.
    Frank Buckles, Jr. was too young to officially enlist when WWI 
started but that didn't stop him.
    He wanted to join the doughboys ``over there'' as the song by 
George Cohan put it.
    So he told a Marines recruiter at the Kansas State Fair that he was 
18, but even that was too young--he had to be 21.
    After trying three more recruiting offices and being turned down, 
he finally went to the Army and gave the recruiter the family Bible to 
prove his age. The Army accepted it and off to WWI he went.
    An old Army sergeant told Mr. Buckles that the Ambulance Service 
was the quickest way to get to France because the French were begging 
for ambulance services, so that's what Mr. Buckles did.
    After the war, he came back home, although 116,000 of his fellow 
doughboys didn't. That's 25 times the number of soldiers we lost in 
Iraq.
    He was in the Philippines when World War II started, and was 
captured by the Japanese and held in a prisoner of war camp for 3\1/2\ 
years. He was rescued, came back home to America and went to his farm 
in West Virginia, where his forefathers first settled back in 1732. He 
would ride his tractor until he was 106. On February 27, 2011, at the 
age of 110, Mr. Buckles passed away.
    Mr. Buckles was a great American whose life encompassed nearly half 
our nation's history. But that's not the main reason I bring him up. 
Mr. Buckles was the last doughboy. This was a role he did not choose, 
but gracefully accepted. As the sole survivor of the 4 million that 
served in WWI, he felt it was his duty to make sure they were properly 
remembered.
    His dying wish was for a memorial on the National Mall for all who 
served in WWI. You see, Mr. Chairman, we have a memorial for Vietnam 
veterans, we have a memorial for Korean veterans, and we have a 
memorial for World War II veterans. There is a small memorial for the 
D.C. troops that served in World War I, but there's no memorial on the 
Mall for all of the doughboys like Mr. Buckles. And they have all died, 
all 4.7 million of them. It's our job to make sure they are not 
forgotten.
    The Amendment in the Nature of a Substitute to H.R. 938 honors all 
our WWI veterans.
    First, the bill rededicates the DC memorial on the Mall as the 
District of Columbia and National World War I Memorial. DC should be 
left in the name of the memorial to honor the history of the memorial 
even while we add to its significance by making it a national memorial. 
The bill allows for a commemorative work, like a statue, to reflect the 
national nature of the memorial, but the memorial itself will stay the 
same. It is a beautiful and fitting memorial--we do not need to do any 
major reconstruction.
    Second, the bill rededicates the Liberty Memorial of Kansas City as 
the National World War I Museum and Memorial. The Liberty Memorial has 
the only public museum specifically dedicated to the history of WWI and 
is important to our national remembrance.
    Finally, the bill establishes a commission of 12 members to ensure 
the WWI centennial is properly observed, much like commissions 
established for the anniversaries of the Revolutionary and Civil Wars. 
The members will be appointed by the President and party leaders in the 
House and Senate.
    The United States is already behind the ball in getting 
commemorating efforts going. Australia and New Zealand have had a full 
commission set up since 2010. France has already released a dossier of 
their plans and appointed commemorative chairmen. The UK has appointed 
a Special Representative of the Prime Minister for the Centennial to 
take charge of their efforts.
    Our WWI veterans are heroes. They faced some of the most horrific 
weapons of war ever invented by man.
    Nations were still experimenting with just how lethal biological 
weapons could be during WWI. Biological weapons turned out to be so bad 
that the world would come together to sign the Geneva Protocol in 1925, 
one of the earliest treaties limiting weapons of war.
    Then there were diseases like gang-green that thrived in the dark, 
wet, and muddy trenches that killed as many Americans in one year than 
perished in combat.
    Despite these terrible sacrifices, the 4.7 million veterans who 
returned home never got a GI bill, didn't have a Veterans Affairs 
Department to watch out for them, and didn't get help in going to 
college or buying a house. But they would fight so that future veterans 
did.
    Our veterans represent some of the greatest Americans. By properly 
honoring WWI veterans, we show our veterans of the Afghanistan and Iraq 
wars today that we will never forget them.
    To our shame, we did not get this done before Mr. Buckles passed, 
but we still have an opportunity to honor his and all his compatriots' 
sacrifice.
    It is one thing to die for your country. It is another thing and 
the worst casualty of war to be forgotten by your country.
    Thank you.
                                 ______
                                 
    Mr. Bishop. Mr. Sullivan, I appreciate you sneaking in 
here. You are next in the line, if you would like to go with 
your bill, which is H.R. 1278.

   STATEMENT OF THE HON. JOHN SULLIVAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Sullivan. Thank you, Chairman Bishop. And Chairman 
Bishop, Ranking Member Grijalva, and distinguished Members of 
the Committee, thank you for the opportunity to testify before 
you today on my legislation pertaining to the John Hope 
Franklin Reconciliation Park, located in Tulsa, Oklahoma.
    I am pleased to be here among my colleagues to speak in 
favor of my bill, H.R. 1278, which authorizes the Secretary of 
the Interior to conduct a special resource study regarding the 
inclusion of the John Hope Franklin Reconciliation Park and 
other sites associated with the 1921 Tulsa race riot as a unit 
of the National Park System.
    Prior to the Tulsa race riots, the community of Greenwood 
in Tulsa was a thriving African American business community and 
a home to nearly 11,000 citizens. On May 31, 1921, angry mobs 
invaded Tulsa's Greenwood community and destroyed nearly 40 
square blocks of residential area, and virtually the 
community's entire business district. An estimated 300 people 
lost their lives. Over 700 people were injured. And 
approximately 9,000 Greenwood residents were left homeless. And 
the area was left with almost 1.5 million worth of damages.
    In November 2005, the United States National Park Service 
issued a survey certifying the 1921 race riot as an 
historically significant event because it possesses exceptional 
value or quality in illustrating or interpreting the national 
or cultural themes of our national heritage. The study goes 
into great depth about the national significance of the riot. 
And I encourage Members of the Committee and all Americans to 
read it.
    John Hope Franklin Reconciliation Park, dedicated in Tulsa, 
Oklahoma on October 27, 2010, memorializes the 1921 race riot, 
and honors the legacy of the late Dr. John Hope Franklin, 
world-renowned American historian, a 1995 recipient of the 
Presidential Medal of Freedom, and a native son of Oklahoma. 
Dr. Franklin attended the ground-breaking ceremony for the park 
in November 2008. It was his last public appearance before he 
passed away at the age of 94 in March 2009. H.R. 1278 was 
introduced in March of this year, in remembrance of the second 
anniversary of Dr. Franklin's passing.
    It is fitting that this park is named after the late Dr. 
John Hope Franklin for several reasons. First, Dr. Franklin 
recognized the important role this park would serve in 
educating Americans of all walks of life, creed, and color 
about our shared history.
    Second, Dr. Franklin's admiration and advocacy for the 
National Park Service was clear throughout his lifetime. He 
served as a distinguished tenure as--he served a distinguished 
tenure as Chairman of the National Park Service Advisory Board. 
Dr. Franklin took every opportunity to champion the National 
Park Service's mission to encourage the study of America's past 
by linking specific places to the narrative of our country's 
history.
    H.R. 1278, with over 30 bipartisan cosponsors, and much 
community support, including that of the City of Tulsa, 
authorizes the National Park Service to conduct a special 
resource study on the suitability and feasibility of designing 
the John Hope Franklin Reconciliation Park and Greenwood area 
sites in Tulsa, Oklahoma relating to the 1921 Tulsa race riot 
as a unit of the National Park System. H.R. 1278 is the next 
logical step in helping to bring national historical 
significance to the 1921 Tulsa race riot.
    I would like to close with the words from Dr. Franklin, 
that ``our parks are a setting for a celebration, as well as 
remorse, leading to a determination to do better things in the 
future.''
    Mr. Chairman and Ranking Member, I respectfully ask for the 
Subcommittee's support of H.R. 1278, and thank you for the 
opportunity to deliver my testimony today. And I would also 
like to recognize Dr. John Hope Franklin's son, John Franklin, 
who is here today, that lives in this area.
    I thank you, and I appreciate you letting me testify today.
    [The prepared statement of Mr. Sullivan follows:]

      Statement of The Honorable John Sullivan, a Representative 
    in Congress from the State of Oklahoma, in Support of H.R. 1278

    Chairman Bishop, Ranking Member Grijalva and distinguished Members 
of the Committee, thank you for the opportunity to testify before you 
today on my legislation pertaining to the John Hope Franklin 
Reconciliation Park located in Tulsa, Oklahoma. I am pleased to be here 
among my colleagues to speak in favor of my bill, H.R. 1278, which 
authorizes the Secretary of the Interior to conduct a special resource 
study regarding the inclusion of the John Hope Franklin Reconciliation 
Park and other sites associated with the 1921 Tulsa Race Riot as a unit 
of the National Park System.
    Prior to the Tulsa Race Riots, the community of Greenwood in Tulsa 
was a thriving African-American business community and home to nearly 
11,000 citizens. On May 31, 1921, angry mobs invaded Tulsa's Greenwood 
community and destroyed nearly 40 square blocks of residential area and 
virtually the community's entire business district. An estimated 300 
people lost their lives, over 700 people were injured, approximately 
9,000 Greenwood residents were left homeless, and the area was left 
with almost $1.5 million worth of damages.
    In November 2005, the United States National Park Service issued a 
Reconnaissance Survey, certifying the 1921 Tulsa Race Riot as a 
historically significant event because it ``possesses exceptional value 
or quality in illustrating or interpreting the national or cultural 
themes of our national heritage.'' The study goes into great depth 
about the national significance of the riot and I encourage Members of 
the Committee and all Americans to read it.
    John Hope Franklin Reconciliation Park, dedicated in Tulsa, 
Oklahoma on October 27, 2010, memorializes the 1921 race riot and 
honors the legacy of the late Dr. John Hope Franklin, world renowned 
American historian, 1995 recipient of the Presidential Medal of 
Freedom, and a native son of Oklahoma. Dr. Franklin attended the 
groundbreaking ceremony for the Park in November 2008. It was his last 
public appearance before he passed away at the age of 94 in March 2009. 
H.R. 1278 was introduced in March of this year, in remembrance of the 
second anniversary of Dr. Franklin's passing.
    It is fitting that this Park is named after the late Dr. John Hope 
Franklin for several reasons. First, Dr. Franklin recognized the 
important role this Park would serve in educating Americans of all 
walks of life, creed and color, about our shared history. Second, Dr. 
Franklin's admiration and advocacy for the National Park Service was 
clear throughout his lifetime. He served a distinguished tenure as 
Chairman of the National Park Service Advisory Board. Dr. Franklin took 
every opportunity to champion the National Park Service's mission to 
encourage the study of America's past by linking specific places to the 
narrative of our country's history.
    H.R. 1278, with over 30 bipartisan cosponsors, and much community 
support including that of the City of Tulsa, authorizes the National 
Park Service to conduct a special resource study on the suitability and 
feasibility of designating the John Hope Franklin Reconciliation Park 
and Greenwood area sites in Tulsa, Oklahoma, relating to the 1921 Tulsa 
Race Riot as a unit of the National Park System. H.R. 1278 is the next 
logical step in helping to bring national historical significance to 
the 1921 Tulsa Race Riot.
    I would like to close with words from Dr. Franklin, that ``our 
parks are settings for celebration as well as remorse, leading to a 
determination to do better things in the future.''
    Mr. Chairman and Ranking Member Grijalva, I respectfully ask for 
the Subcommittee's support for H.R. 1278, and I thank you for the 
opportunity to deliver my testimony today.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman Sullivan. We appreciate 
that, as well as the guest who is with us today. We appreciate 
both of you being here. Thank you for your testimony.
    Once again, same offer as the others. No one has taken me 
up on it yet, but if you would like to stay you may.
    Mr. Sullivan. Well, Chairman Bishop, I would love to stay.
    Mr. Bishop. But?
    Mr. Sullivan. I do have another event I have to go to. Fred 
Upton wants me in Energy and Commerce. We are having a retreat 
today, so I apologize.
    Mr. Bishop. Yes, I am taking this all personally. All 
right.
    Representative Flake, we welcome you back to the Committee, 
and we would like to ask you if you wish to testify or 
introduce your bill, which is 3440. Recognized for five 
minutes.

STATEMENT OF THE HON. JEFF FLAKE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Flake. Great. Thank you. And I want to apologize in 
advance. I do have to leave, as well, afterwards. But I 
appreciate the opportunity, and thank you for allowing me here, 
and to Ranking Member Grijalva, as well.
    This is the Recreational Shooting Protection Act. And 
Representative Grijalva mentioned that there is a lot of 
collaboration, there is a lot of discussion that goes on at the 
local level when these shooting bans are put into effect. I 
think that that is only right and proper, as there should be.
    What this legislation seeks to do, it would simply direct 
the BLM to manage monument lands among the public lands. And 
Arizona, as we all know, is largely public land. More than 80 
percent of the state is public land, either state, Federal, or 
tribal. And so, to have opportunities to actually engage in 
recreational shooting, you need to be on public lands. And a 
lot of those lands are monument lands, as well.
    So, it would simply direct the BLM to manage national 
monument lands in a manner that enhances recreational shooting 
opportunities. And I know that some of the folks at the Federal 
level and the BLM and other management agencies try to do that. 
But at times--sometimes I think they act precipitously.
    Right now, there are more than a million acres across the 
country that are being looked at, in terms of a ban for 
recreational shooting, a million acres. Keep in mind that more 
than half of that is in Arizona. And when you think of all that 
land that would be put aside and prohibited, in terms of 
recreational shooting, I think that it behooves Congress to 
step in and make sure that it is done in the most deliberative 
way possible.
    So, this legislation would simply direct the BLM, when it 
authorizes certain lands to be prohibited from recreational 
shooting, that that decision come before Congress and Congress 
has six months to approve that, to ensure that it's proper.
    We have seen, unfortunately, a lot of overreach by the 
agencies recently, with regard to public lands. In Arizona we 
have just endured a million acres being set aside in northern 
Arizona from economic activity, specifically mining in the 
Arizona strip. And so, we do know--I think it is recognized by 
everyone--that there is substantial overreach that can occur.
    And this simply brings the Congress, the representative 
body, where people who want to go and have recreational 
shooting, they have--they can't go and appeal to the agencies, 
they have no recourse there. But they do have recourse with us. 
That is why we are here. We represent our constituents in that 
way.
    And so, this gives Congress a role in ensuring that those 
areas where shooting needs to be prohibited--and there are some 
areas, certainly--that Congress has a role. And so that is all 
this legislation does.
    I appreciate having the opportunity to be here. And thank 
you for your forbearance.
    [The prepared statement of Mr. Flake follows:]

        Statement of The Honorable Jeff Flake, a Representative 
                 in Congress from the State of Arizona

    Mr. Chairman, thank you for the opportunity to provide comments in 
support of H.R. 3440, the Recreational Shooting Protection Act, which I 
have introduced this Congress.
    This legislation is endorsed by both the National Rifle Association 
and the National Shooting Sports Foundation and has two necessary 
goals.
    The bill would direct the BLM to manage national monument lands in 
a manner that enhances recreational shooting opportunities; and it 
would require Congressional approval for existing and future 
recreational shooting restrictions on BLM-managed national monument 
lands.
    On November 22nd of last year, Interior Secretary Ken Salazar 
issued a memorandum to the Director of the Bureau Land Management.
    Titled ``Protecting Recreational Shooting on Public Lands,'' the 
directive walked back a controversial draft proposal that sought to 
expand BLM's authority to ban recreational shooting on public lands.
    When exposed to a nation wary of this Administration's many 
overreaches, Secretary Salazar abandoned the draft policy. It survived 
public scrutiny for just six days.
    In the memo he ultimately finalized and released, Secretary Salazar 
declared that ``[i]t is a priority of the Department of the Interior to 
support opportunities for hunting, fishing and recreational shooting on 
America's public lands,'' and indicated that ``the Bureau of Land 
Management helps ensure that the vast majority of the 245 million acres 
it oversees are open and remain open to recreational shooting.''
    Here we have a crystal clear show of support for recreational 
shooting on public lands from the Administration, and--to their 
credit--they waited a whole two days to contradict it.
    On November 25, two thousand miles away, the BLM moved a proposal 
to ban recreational shooting across the entire 470,000 acre Sonoran 
Desert National Monument in Arizona one step closer to approval.
    How could this possibly be consistent? Unfortunately, that same 
memo directed the BLM to ``continue to manage recreational shooting on 
public lands under the status quo. . .''
    The status quo is what most threatens the rights of recreational 
shooters today--it is under the status quo that the BLM has already 
allowed 616,000 acres of national monument land to be closed to 
recreational shooting since 2010.
    It is the status quo that compelled me to introduce the 
Recreational Shooting Protection Act. This Administration could use a 
little oversight when it comes to land management decisions.
    This Administration's BLM has closed or begun to ban recreational 
shooting on more than one million acres of national monument lands and 
more than half of that acreage is in Arizona.
    Sadly, critics are quick to ignore the many recreational 
enthusiasts that responsibly use their federal lands as well as the 
existing laws on the books that already make disreputable actions 
illegal. They instead point to the actions of some bad actors as a 
reason to restrict access.
    Based on its actions, one could easily reach the conclusion that 
this Administration is not intent on simply restricting recreational 
shooting where appropriate, but instead is trying to end the sport 
outright.
    In Arizona, where two monument closures are currently being 
pursued, the BLM has purportedly been unable to find any suitable area 
worth recommending for recreational shooters to enjoy in an area 
equivalent of nearly half a million football fields.
    I say Congress ought to have the ability to tell BLM to look 
harder. That's all this bill provides. It does not prevent the closure 
of BLM lands to recreational shooting; it simply adds an additional 
layer of supervision and oversight to the process.
    Mr. Chairman, I appreciate the opportunity to offer testimony in 
support of the Recreational Shooting Protection Act. I look forward to 
this bill moving through the legislative process.
                                 ______
                                 
    Mr. Bishop. Thank you again, Representative Flake. I 
appreciate your time. Welcome back to our Committee, as well.
    We also have three bills that are before us in this hearing 
with Members who are Members of the Committee or the 
Subcommittee. So, with that, I would like to give them the 
opportunity to introduce their bill at the same time.
    Ms. Tsongas, the gentlelady from Massachusetts, you have 
2240. If you would like to introduce your bill at this time, we 
would be happy to hear that.

    STATEMENT OF THE HON. NIKI TSONGAS, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Ms. Tsongas. Thank you, Chairman Bishop and thank you, 
Ranking Member Grijalva, for holding this hearing today, and 
for providing me the opportunity to share my remarks on H.R. 
2240, the Lowell National Historical Park Land Exchange Act.
    And I would also like to thank Dr. Peter May of the 
National Park Service and Adam Baacke of the City of Lowell, 
who will be testifying today in support of this bill. And I 
want to recognize Michael Creasey, Superintendent of the Lowell 
National Historical Park, who is in attendance today, for his 
support.
    In 1978 legislation was passed establishing the Lowell 
National Historical Park. It was championed by my late husband, 
as well as two Republican Members of Congress who preceded him. 
We should take bipartisan pride in its great success.
    This national park was given a unique mandate to not only 
preserve and interpret the resources representing Lowell's 
central role in our 19th century Industrial Revolution, but 
also to serve as a catalyst in revitalizing the city's 
physical, economic, and cultural environments, all outgrowths 
of the city's industrial history. Working together with the 
City of Lowell, the Commonwealth of Massachusetts, and many 
other public and private partners, the Lowell National 
Historical Park has played a vital role in rehabilitating over 
400 structures, and has since 1978 helped spur an estimated $1 
billion in private investment in the city.
    And all of this has been done while the park has developed 
a compelling array of programs, exhibits, guided tours, and 
other interpretive programs. H.R. 2240 would allow the park and 
its partners to continue working to advance the park's mission 
to preserve the city's historic industrial architecture, while 
creating jobs and continuing to partner with the City of Lowell 
to advance a critical economic development project: the 
Hamilton Canal District. This legislation would most 
immediately allow the park to exchange a current surface 
parking lot for an equivalent number of spaces in a new garage 
that will be built by the City of Lowell adjacent to the 
present parking lot, guaranteeing necessary parking spaces for 
park visitors while freeing the surface parking lot for 
incorporation into the Hamilton Canal District redevelopment.
    On the space of the current parking lot, an adjacent vacant 
property, the city, working with private partners, plans to 
construct over 400,000 square feet of commercial and R&D space, 
generating as many as 1,600 jobs. As such, it is a critical 
piece in the master redevelopment plan for the area.
    The land exchange is supported by the Lowell National Park, 
the City of Lowell, and all local stakeholders, and has 
received all major state permits and local zoning allowances. 
However, the enabling law for the park only provides for the 
park to receive additional funds. It is not allowed to exchange 
land. This legislation and similar legislation introduced by 
Senator Kerry in the Senate would allow this mutually agreed-
upon exchange.
    I want to stress that this legislation costs nothing. There 
will be absolutely no cost to the taxpayers.
    It will also extend the preservation loan program for 
another 25 years. This program was designed as an innovative 
way to leverage development funds to preserve and rehabilitate 
nationally significant buildings that are part of the city's 
historic industrial architecture. Funds from the program are 
loaned at favorably low rates to private developers who 
complete redevelopment projects in Lowell that are consistent 
with historic preservation guidelines developed by the City of 
Lowell and the National Park Service.
    This program has been an incredibly successful tool in 
facilitating partnerships with private developers to advance 
the park's mission. Since its creation, the program has funded 
21 redevelopment projects of structures that otherwise might 
have been demolished or languished in disrepair. But there is 
still much work to be done. This bill would extend the program 
for another 25 years at no cost to taxpayers.
    In closing, I would like to again thank you, Chairman 
Bishop and Ranking Member Grijalva, as well as all the Members 
of the Subcommittee, for holding this hearing on H.R. 2240. 
Thank you, and I yield back.
    Mr. Bishop. Thank you. I appreciate that.
    I will turn to the representative from Michigan, Mr. 
Benishek, if you would like to introduce 3411 to us.

    STATEMENT OF THE HON. DAN BENISHEK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Dr. Benishek. Thank you, Mr. Chairman. Thanks for holding 
this hearing. This bill is simply a straightforward technical 
correction to a land patent granted to the Great Lakes 
Shipwrecks Historical Society, which is located in my district. 
Located in the Upper Peninsula of Michigan along Lake Superior, 
the Great Lakes Shipwreck Museum presents a firsthand look at 
the history of those who have navigated the Great Lakes over 
the years, and it attracts about 60,000 visitors a year.
    The bill ensures that visitors will continue to learn this 
maritime history by modifying the patent to reflect a 2002 
consensus agreement that allows for the development and 
expansion of new facilities.
    Senator Levin successfully passed this legislation in the 
Senate without objection.
    And Mr. Chairman, I appreciate you holding the hearing, and 
ask for your support in reporting this bill favorably to the 
Floor.
    [The prepared statement of Dr. Benishek follows:]

       Statement of The Honorable Dan Benishek, a Representative 
                 in Congress from the State of Michigan

    Mr. Chairman, thank you for holding this hearing and for your 
leadership on this Committee. My bill is a simple and straightforward 
technical correction to a land patent granted to the Great Lakes 
Shipwreck Historical Society, located in my district.
    Located in the Upper Peninsula of Michigan along Lake Superior, the 
Great Lakes Shipwreck Museum presents a firsthand look at the history 
of those who bravely navigated the Great Lakes, attracting roughly 
60,000 visitors a year.
    My bill ensures that visitors will continue to learn this maritime 
history by modifying the patent to reflect a 2002 consensus agreement 
that allows for the development and expansion of new facilities.
    Senator Levin successfully passed this legislation in the Senate 
without objection.
    Mr. Chairman, I thank you again for holding this hearing and ask 
for your support in reporting this bill favorably to the floor.
                                 ______
                                 
    Mr. Bishop. That is it?
    Dr. Benishek. That is it.
    Mr. Bishop. You are the fastest one here, so far. Thank 
you. Thank you for the introduction to that bill.
    The final bill that we have in this hearing is 2489 by 
Representative Holt. Representative Holt, if you are prepared 
to introduce your bill, I think I can give you one guarantee, 
that if this bill comes to the Floor we promise that when we 
take your bill we will at least put your bill back into it 
before we pass it on again.
    Representative Holt, you are recognized to introduce your 
bill.

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Chairman Bishop and Representative 
Grijalva, Members of the Committee, and Members of Congress who 
are still in the room. I am pleased to bring forward again the 
American Battlefield Protection Act.
    From Lexington, where the first shot was heard around the 
world, to Gettysburg, the site of the brilliantly concise 
description of the conception and proposition that make up 
America, the stories of the American Revolution and the Civil 
War bring to life the ideals of liberty and democracy fostered 
by our nation's founders.
    History is best experienced by those who can touch it and 
feel it and live it. And the battlefields of the American 
Revolution, the War of 1812, the Civil War, provide an 
opportunity for Americans to experience where and how the epic 
struggle for our nation's independence and identity took place. 
Preserving these historic treasures is really essential for 
Americans to remember the sacrifices of our forefathers, and 
how they secured our freedom and independence and later fought 
to keep the Nation whole. And it is essential for educating 
future generations about our rich cultural history.
    It can actually help to see--help to ensure that a nation 
conceived in liberty and dedicated to the proposition that all 
are created equal can long endure. Unfortunately, urbanization, 
suburban sprawl, unplanned commercial and residential 
development are constantly encroaching on many significant 
battlefields of the American Revolution and the War of 1812. 
And this encroachment poses a severe and growing risk to the 
preservation of these historically significant sites.
    Now, Congress recognized this danger to our shared history, 
and in the late 1990s created the American Battlefield 
Protection Program, a competitive grant program that matches 
Federal dollars with private money to preserve Civil War sites. 
Since Congress first appropriated funding to this program more 
than a dozen years ago, the program has helped save more than 
17,000 acres of hallowed ground in 14 states, dozens and dozens 
of grants averaging about $35,000, and leveraging far more 
money in private matching funds.
    Congress authorized the National Park Service to study 
historic sites associated with the War of Independence and the 
other war with Britain that occurred several decades later. And 
in September 2007 the Park Service delivered its report to this 
Committee. This report shows that there is really a desperate 
need to act, and to act quickly to preserve these sites.
    Out of the 825 nationally significant battlefields and 
associated sites from these 2 early conflicts, 107 of these 
battlefields have been lost, 245 are in fragmented or poor 
condition, 222 are in danger of being destroyed soon.
    The bill before us today would build on the success of the 
American Battlefield Protection Program in preserving--that it 
has had in preserving Civil War battlefield sites, and would 
re-authorize the program and extend the protection and 
preservation to battlefields from the Revolutionary War and the 
War of 1812. It would allow officials in the American 
Battlefield Protection Program to collaborate with state and 
local governments and non-profit organizations to preserve and 
protect the most endangered historical sites, and provide up to 
50 percent of the cost of purchasing battlefield land 
threatened by sprawl and commercial development.
    Previously, this legislation has been approved twice by the 
House with near-unanimous support. This is what the Chairman 
was referring to. In this Congress the American Battlefield 
Protection Program Amendments Act is again enjoying bipartisan 
support. I would like to invite all Members of the Committee to 
become cosponsors of this legislation. And I do hope that the 
other body of Congress will get its act together.
    I would also like to invite you to become a cosponsor of my 
legislation, the Revolutionary War and War of 1812 Battlefields 
Commemorative Coin Act. This legislation would authorize 
creation and issuance of commemorative coins to raise money for 
the preservation program, just as a similar Civil War 
battlefield commemorative coin act has raised nearly $6 million 
for preservation.
    I look forward to hearing this morning from David Hackett 
Fischer, who was awarded the Pulitzer Prize for his fine book, 
``Washington's Crossing,'' and who will testify today on behalf 
of the legislation. The works of Professor Fischer, along with 
others like David McCullough, Richard Ketchum, and numerous 
other authors, have helped to revive the national interest in 
American history and the history of the American Revolution and 
the Civil War.
    However, learning history, with all respect to Mr. Fischer, 
learning history through reading or watching a movie can't 
compare with the experience of being where the history took 
place. The Civil War Trust said, in their letter supporting 
this legislation, ``The battlefields of the American 
Revolutionary War and the War of 1812 and the Civil War provide 
a unique opportunity for Americans to experience the epic 
battles that helped define our nation.''
    Preserving these historic treasures is essential to 
remember the sacrifices of our ancestors--that our ancestors 
made to secure our freedom and independence.
    Historical sites once lost are gone forever. And we really 
must act now to preserve these valuable sites. Mr. Chairman, I 
would like to ask unanimous consent to enter in the record 
letters of support for this legislation from the Civil War 
Trust, the National Parks Conservation Association, and the 
Crossroads of the American Revolution.
    And I thank--with--if you will grant that request, I would 
appreciate it. And I thank you, Chairman, for bringing forward 
this legislation.
    Mr. Bishop. Without objection, those will be added to the 
record.
    [The letters from the Civil War Trust, Crossroads of the 
American Revolution Association, and National Parks 
Conservation Association follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Bishop. We appreciate your testimony. If you hadn't 
added that plug for the second bill, you would have been under 
time, too. Appreciate that.
    With that, I am going to try and save some time and combine 
the second and the third panels together. So I would invite--I 
think the staff needs to put a couple more chairs up there--I 
would invite the following to join us up at the dais, as well. 
Or not the dais, the panel down there.
    If I can get Mr. Bob Ratcliffe, who is the deputy assistant 
director for renewable resources and planning at the BLM; Ms. 
Susan Recce, who is the director of conservation, wildlife, and 
natural resources with the National Rifle Association; Mr. 
Peter May, who is the associate regional director for the 
National Park Service; Mr. Adam Baacke, who is the assistant 
city manager and director of planning in Lowell, Massachusetts; 
Mr. Edwin Fountain, who is the director of the World War I 
Memorial Foundation; Mr. Nelson Rimensnyder, who is the 
historian with The Association of the Oldest Inhabitants of the 
District of Columbia; and Mr. David Hackett Fischer, who is a 
university professor at Brandeis University. And I realize I am 
squishing you together there. Mr. Ratcliffe, if I can have you 
kind of move down a bit, everyone slide slightly here. This way 
we have seven people at the table.
    We are going to go through these, bill by bill. So, some of 
you, like Mr. Ratcliffe, Ms. Recce, and Mr. May, I am assuming, 
are talking about multiple bills. What I would like you to do 
is try and ferret out that portion of your testimony that deals 
with each bill as we go through them. We will take that 
testimony, and then we will allow questions from the panel, if 
there are any for those particular bills.
    So, let us start once again now with the first one from 
which we heard, which was Mr. Franks's bill, 919. And once 
again, for all of you who are here, I appreciate your 
testimony. Whether you are talking about one bill or multiple 
bills, written testimony has already been included. We ask you 
to limit everything to a maximum of five minutes. Obviously, if 
you want to go less than that, you are more than welcome to do 
that.
    You will see the timers in front of you. Please notice that 
when the light turns yellow you have one minute left. And when 
it turns red, the time has expired.
    May we start with Mr. Ratcliffe? If you would, give us your 
remarks simply to House bill 919 by Mr. Franks.

    STATEMENT OF BOB RATCLIFFE, DEPUTY ASSISTANT DIRECTOR, 
  RENEWABLE RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT

    Mr. Ratcliffe. Thank you, Mr. Chairman, Ranking Member 
Grijalva.
    H.R. 919 transfers 315 acres of public lands within Mohave 
Valley of Arizona to the Arizona Game and Fish Department for 
use as a public shooting range.
    The BLM supports the goals of this bill, but opposes the 
legislation as currently drafted.
    After 10-plus years of negotiation with the Arizona Game 
and Fish Department, interested tribes, the public, and the BLM 
are nearing completion of the administrative process to 
transfer land under the Recreation and Public Purposes Act.
    Our decision includes important mitigation measures which 
are not included in the current legislation.
    If the Congress chooses to legislate this conveyance, the 
BLM looks forward to working with the Subcommittee on 
improvements to the bill that include changes to section 3(b), 
mitigation measures to address tribal concerns, protection of 
valid existing rights, as well as a cause to allow the lands to 
revert back to the BLM if they are not being used consistent 
with the R&PP Act.
    [The prepared statements of Mr. Ratcliffe follow:]

   Statement of Bob Ratcliffe, Deputy Assistant Director, Renewable 
Resources & Planning, Bureau of Land Management, U.S. Department of the 
    Interior, on H.R. 919, Mohave Valley Land Conveyance Act of 2011

    Thank you for the opportunity to testify on H.R. 919, the Mohave 
Valley Land Conveyance Act of 2011, which proposes to transfer 315 
acres of public lands managed by the Bureau of Land Management (BLM) to 
the Arizona Game and Fish Department (AGFD) for use as a public 
shooting range. The BLM supports the goals of H.R. 919, but opposes the 
legislation as currently drafted. The BLM notes that the agency is 
nearing completion of the administrative process to accomplish the 
transfer, but its decision for the authorization includes important 
mitigation measures which are not in the current legislation.
    For the past ten years, the BLM has been working with the AGFD, the 
Fort Mojave Indian Tribe, the Hualapai Tribe, and the public to find 
appropriate lands for a public shooting range within the Mohave Valley 
in Arizona. On February 10, 2010, the BLM made the decision to 
authorize the transfer of BLM lands to the AGFD (through the Recreation 
and Public Purposes Act of 1926, as amended, 43 U.S.C. 869 et seq.; 
R&PP) for use as a public shooting range. The decision, which is 
consistent with the goals of H.R. 919, provides a safe, designated 
shooting area for the public, and includes stipulations designed to 
respect the traditional beliefs of the Fort Mojave and Hualapai Tribes. 
The BLM will continue working with interested parties as we move 
forward with authorizing the shooting range.
Background
    In 1999, the AGFD first submitted an application to the BLM for 
development of a public shooting range on BLM-managed lands in Mohave 
County, near Bullhead City in northwestern Arizona. As a result, the 
BLM began working with the AGFD and other interested parties to assess 
appropriate lands to transfer to the AGFD for the purposes of a 
shooting range under the R&PP.
    The BLM evaluated the AGFD's application through an environmental 
assessment (EA) and considered numerous alternative locations 
throughout the Mohave Valley. The evaluation process was conducted with 
full public and tribal participation. There is an identified need for a 
designated public shooting range in this region because of the lack of 
a nearby facility, the amount of dispersed recreational shooting 
occurring on public and private lands raising public safety concerns, 
and the associated natural resource impacts from spent ammunition and 
associated waste.
    In 2002, the BLM began consultations with the Fort Mojave Indian 
Tribe and the Hualapai Tribe. In 2003, the BLM initiated consultation 
with the Arizona State Historic Preservation Officer (SHPO); and in 
2006, the BLM initiated Section 106 consultation with the Advisory 
Council on Historic Preservation (ACHP). These consultations, as 
required by Section 106 of the National Historic Preservation Act and 
other authorities, ensure Federal agencies consider the effects of 
their actions on historic properties, and provide the ACHP and SHPO an 
opportunity to comment on Federal projects prior to implementation.
    In addition to the Section 106 consultation process, the BLM 
initiated a year-long Alternative Dispute Resolution (ADR) process in 
2004 to help identify issues, stakeholder perspectives, and additional 
alternatives to meet the criteria for a safe and effective public 
shooting range in the Mohave Valley. However, the ADR process failed to 
reconcile differences between several consulting parties regarding a 
proposed location.
    In 2006, as part of continued Section 106 consultation with the 
ACHP, the BLM initiated site visits by the concerned parties and also 
continued efforts to identify alternative sites. Unfortunately, despite 
these efforts, the BLM was unable to reach an agreement with the 
consulted Tribes on any area within the Mohave Valley that the Tribes 
would find acceptable for a shooting range. The Tribes maintained their 
position that there is no place suitable within the Mohave Valley, 
which encompasses approximately 140 square miles between Bullhead City, 
Arizona, and Needles, California.
    Through the EA process, the BLM identified the Boundary Cone Road 
alternative to be the preferred location. Boundary Cone Butte, a highly 
visible mountain on the eastern edge of the Mohave Valley, lies 
approximately 3 miles east of the Boundary Cone Road site, and is of 
cultural, religious, and traditional importance to both the Fort Mojave 
Indian Tribe and the Hualapai Tribe. In an effort to address the 
primary concerns expressed by the Tribes over visual and sound issues, 
the BLM and AGFD developed a set of potential mitigation measures. 
Again, there was a failure to agree between the consulting parties on 
possible mitigation. In the end, the BLM formally terminated the 
Section 106 process with the ACHP in September 2008. In November 2008, 
ACHP provided their final comments in a letter from the Chairman of the 
ACHP to then-Secretary of the Interior Kempthorne.
    Although the Section 106 process was terminated, the BLM continued 
government-to-government consultations with the Tribes. In May of 2009, 
the BLM met with the Chairman of the Fort Mojave Indian Tribe, the 
AGFD, and the Tri-State Shooting Club in a renewed effort to find a 
solution. On February 3, 2010, after continued efforts to reach a 
mutually agreeable solution, the BLM presented the decision to approve 
the shooting range to the Fort Mojave Indian Tribe and the AGFD. The 
final decision included mitigation measures to address the concerns of 
the Tribes such as reducing the amount of actual ground disturbance; 
reducing noise levels with berm construction; monitoring and annual 
reporting on noise levels; and fencing to avoid culturally sensitive 
areas. The Secretary has the authority to take action to revest title 
to the land covered by the proposed R&PP patent if the AGFD fails to 
comply with mitigation measures. The final decision to amend the 
Kingman Resource Management Plan and dispose of the lands through the 
R&PP was signed on February 10, 2010.
    The BLM decision was appealed to the Interior Board of Land Appeals 
(IBLA) on February 23, 2010, by a private landowner near the proposed 
shooting range; and on March 15, 2010, a joint appeal by the Fort 
Mojave Indian Tribe and Hualapai Tribe was filed. The IBLA dismissed 
the appeal of the private landowner on July 29, 2010. The IBLA issued a 
stay of the BLM decision on April 15, 2010, at the request of the 
Tribes. A final decision by the IBLA on the Tribes' appeal was issued 
on December 7, 2010 (180 IBLA 158). The IBLA affirmed the BLM's 
decisions and determined that the BLM had taken a ``hard look'' at the 
impacts of conveying public lands to the AGFD for a shooting range. The 
IBLA decision stated that the EA had an appropriate range of 
alternatives and the environmental consequences were insignificant or 
if significant could be reduced or eliminated by mitigation. The IBLA 
also confirmed that the BLM complied with National Historic 
Preservation Act obligations. This decision allows the BLM to move 
forward in conveying the public lands to the AGFD.
    On December 21, 2010, the BLM informed the AGFD of the next steps 
for processing the administrative action of conveying the land for the 
shooting range. The AGFD is required to: (1) purchase the mineral 
estate or obtain a non-development agreement for the Santa Fe Railroad 
mineral estate (390 acres) under the disposal and buffer lands; (2) 
provide a detailed Plan of Development (POD) that addresses the 
mitigation measures found in the BLM's Decision Record; (3) develop a 
Cooperative Management Agreement with the BLM for the 470-acre buffer 
area; and (4) provide the funds ($3,150) for purchase of the property. 
It is the BLM's understanding that the AGFD obtained a non-development 
agreement with Santa Fe Railroad in December 2011. The BLM has reviewed 
the detailed POD that addresses the mitigation measures in the decision 
and is currently reviewing the Cooperative Management Agreement 
provided by the AGFD. Once the Agreement is signed, the BLM will 
prepare the conveyance documents and then transfer the property to 
AGFD. The BLM expects to convey the land to the AGFD in spring 2012.
H.R. 919
    H.R. 919 provides for the conveyance at no cost to the AGFD of all 
right, title, and interest to the approximately 315 acres of BLM-
managed public lands as identified in the final decision signed by the 
BLM on February 10, 2010, to be used as a public shooting range. 
Furthermore, the legislation makes a determination that the February 
10, 2010, Record of Decision is ``final and determined to be legally 
sufficient'' and ``not be subject to judicial review.''
    As a matter of policy, the BLM supports working with local 
governments, tribes, and other stakeholders to resolve land tenure 
issues that advance worthwhile public policy objectives. The BLM 
acknowledges the lands proposed for development as a shooting range are 
of cultural, religious, and traditional significance to the Tribes 
which is why we support important mitigation measures. The bill as 
drafted does not include such mitigation measures. In general, the BLM 
supports the goals of the proposed conveyance, as it is similar to the 
transfer the BLM has been addressing through its administrative process 
for the last ten years. As noted, a decision has been made through the 
BLM administrative process and the IBLA affirmed the BLM decision, 
thereby dismissing the Tribes appeal that the BLM did not comply with 
various environmental laws. Under the provisions of H.R. 919, judicial 
review would be prohibited. The BLM will continue working to complete 
the conveyance of the lands to the AGFD for a shooting range.
    If the Congress chooses to legislate this conveyance, the BLM would 
recommend some improvements to the bill, including changes to section 
3(b), the incorporation of mitigation measures to address Tribal 
concerns, protection of valid existing rights, as well as a clause to 
allow the lands to revert back to the BLM at the discretion of the 
Secretary if the lands are not being used consistent with the purposes 
allowed in the R&PP Act. The BLM would like to work with the sponsor 
and the Committee to create an appropriate map that identifies the 
Federal land to be conveyed to AGFD.
Conclusion
    Thank you for the opportunity to testify. Resolution of this 
conveyance in a manner that is acceptable to all parties has been an 
important goal of the BLM as evidenced by more than ten years of 
negotiations and review. The BLM is confident the issued decision 
addresses the concerns of the interested parties, while providing 
critical recreational opportunities and benefits to the public.
                                 ______
                                 

   Statement of Bob Ratcliffe, Deputy Assistant Director, Renewable 
 Resources and Planning, Bureau of Land Management, U.S. Department of 
the Interior, on H.R. 3411, Modification of Patent for Whitefish Point 
                        Light Station (Michigan)

    Thank you for the invitation to present testimony on H.R. 3411, 
legislation to modify a land patent pertaining to the Whitefish Point 
Light Station (Michigan). Although the Bureau of Land Management's 
(BLM) role under the legislation is ministerial, preservation of 
historic lighthouses such as the Whitefish Point Light Station is a 
priority for the Department of the Interior. The BLM supports H.R. 
3411.
Background
    In the late 18th and 19th centuries, the United States built a 
series of lighthouses in and around Lake Michigan, Lake Huron, and Lake 
Superior to aid in navigation of the Great Lakes. The role played by 
these lighthouses in the westward expansion and economic growth of the 
United States is part of our national heritage, with ships and 
shipwrecks recalled in story and song. The Great Lakes lighthouses--
including the Whitefish Point Light Station at issue in H.R. 3411--are 
listed on the National Register of Historic Properties.
    The U.S. Coast Guard retains responsibility for aid to navigation 
in the Great Lakes, as it (or its predecessor, the Revenue Marine) has 
since 1790. In the mid-1990s, concerns reached the Congress that the 
Coast Guard, in carrying out its mission in the Great Lakes, was unable 
to assure preservation of the historic lighthouses. Interest in 
preserving the Whitefish Point Light Station led the Congress, in 1996, 
to convey land adjacent to the Light Station to two non-profit 
organizations dedicated to conservation and historic preservation--an 
8.27 acre parcel to the Great Lakes Shipwreck Historical Society 
(Historical Society) and a 2.69 acre parcel to the Michigan Audubon 
Society (Audubon Society) of Chippewa County--and a 33 acre parcel to 
the U.S. Fish and Wildlife Service (FWS) (Public Law 104-208, Omnibus 
Consolidated Appropriations Act, Fiscal Year 1997, Section 5505).
    This law contains limitations on development at the historic 
lighthouse, and explicitly requires compliance with the ``Whitefish 
Point Comprehensive Plan of October 1992.'' The patents the BLM issued 
under this authority (including the most recent, number 61-2000-0007, 
issued March 10, 2000, to the Historical Society) contain this 
reference.
    In 1999, the Audubon Society brought suit against the Historical 
Society and the FWS over plans to develop a museum at the site. The 
parties reached a settlement agreement under which the three groups 
developed the ``Human Use/Natural Resource Plan for Whitefish Point, 
December 2002,'' to supersede the Whitefish Point Comprehensive Plan of 
1992.
H.R. 3411
    H.R. 3411 directs the Secretary of the Interior to modify patent 
number 61-2000-0007 by striking reference to the Whitefish Point 
Comprehensive Plan of October 1992 and inserting the ``Human Use/
Natural Resource Plan for Whitefish Point, dated December 2002.'' H.R. 
3411 affirms the applicability of the National Historic Preservation 
Act to the Whitefish Point Light Station. H.R. 3411 requires that the 
property be used in a manner that does not impair or interfere with its 
conservation values. The BLM supports this legislation.
Conclusion
    Thank you for the opportunity to present testimony in support of 
H.R. 3411.
                                 ______
                                 

   Statement of Bob Ratcliffe, Deputy Assistant Director, Renewable 
 Resources and Planning, Bureau of Land Management, U.S. Department of 
                       the Interior, on H.R. 3440

Introduction
    Thank you for the opportunity to discuss the Bureau of Land 
Management's (BLM's) views on H.R. 3440, the Recreational Shooting 
Protection Act. The Department of the Interior strongly supports the 
goal of promoting opportunities for outdoor recreation, including 
recreational shooting on America's public lands. The BLM is responsible 
for the protection of resources and multiple-use management of our 
Nation's 245 million acres of public land. The vast majority of these 
public lands are open to recreational shooting.
    H.R. 3440 would replace the BLM's locally driven land-use planning 
and management with top-down oversight and intervention from 
Washington, as it relates to placing limits on recreational shooting in 
National Monuments. The BLM's multiple-use mission is best achieved 
when land management issues are handled locally through its site-
specific land-use planning and public involvement processes. Since H.R. 
3440 would overturn this critical local management structure, and 
because the bill also could potentially jeopardize public safety and 
our ability to protect resources, the Department of the Interior 
opposes the measure.
Background
    The BLM manages the public lands for a variety of uses, including 
energy development, livestock grazing, recreation, and timber 
harvesting, while protecting an array of natural, cultural, and 
historical resources. The Bureau's multiple-use management activities 
are authorized by the Federal Land Policy and Management Act (FLPMA) 
and a host of other statutes. Management of specific, local areas is 
shaped by public input through the land use planning process authorized 
by FLPMA and through environmental review documents required by the 
National Environmental Policy Act (NEPA).
    Approximately 4.8 million acres of BLM-managed public lands have 
been designated as 16 National Monuments. These Monuments are managed 
in accordance with FLPMA and other authorities, and comprise part of 
the BLM's National Landscape Conservation System (NLCS).
    The National Monuments managed by the BLM encompass landscapes of 
tremendous beauty and diversity, ranging from rugged California 
coastline to vividly-hued desert canyons. They exemplify not only our 
landscape, but our character as a nation. They include irreplaceable 
and fragile national treasures such as Pompey's Pillar in Montana, the 
site of William Clark's 1806 signature on the face of the 150-foot 
butte, named for Sacagawea's son and the only tangible evidence left 
from Lewis and Clark's historic expedition; the Canyon of the Ancients 
in Colorado, which has the highest known density of archaeological 
sites in the nation; and Kasha-Katuwe Tent Rocks in New Mexico with its 
delicate, boulder-capped, tapering volcanic hoodoo formations in banded 
shades of gray and pink.
    The BLM estimates that well over 95 percent of the 245 million 
acres of BLM-managed public lands are open to recreational shooting. Of 
the BLM's 4.8 million acres of National Monument lands, currently 88 
percent are open to recreational shooting. While the BLM lands are open 
to hunting virtually everywhere the individual states allow it, the 
agency must occasionally restrict recreational target shooting in 
extremely limited circumstances to ensure public safety or protect 
fragile resources. Restrictions on recreational shooting are determined 
through extensive analysis as part of the BLM's land-use planning 
process which is informed by local public input. Typically, 
recreational shooting closures include: administrative sites, 
campgrounds, and other developed facilities; certain areas with 
intensive energy, industrial, or mineral operations; lands near 
residential or community development; or areas with significant and 
sensitive natural or cultural resources. When lands are closed to 
recreational shooting, those restrictions are often implemented to 
comply with state and local public safety laws and ordinances, or are 
implemented at the request of local communities or other adjacent 
private property owners.
    Any consideration of closures or restrictions on BLM-managed lands 
is completed through the BLM's public participation framework for 
planning and decision making established under FLPMA and NEPA. Through 
public comments and scoping periods, land use actions are guided and 
shaped by the public input. This is an open process through which BLM's 
proposals for managing particular resources are made known to the 
public before management action is taken, except in certain emergency 
situations. The BLM responds to substantive comments received from the 
public and stakeholders on the proposed management action during the 
NEPA public review process.
H.R. 3440
    The Department of the Interior opposes H.R. 3440 as it runs counter 
to the BLM's fundamental and locally-driven land-use planning and 
management processes, and potentially jeopardizes public safety. H.R. 
3440 declares that recreational shooting shall be allowed in National 
Monuments administered by the BLM, except if the BLM Director 
determines that restrictions on shooting are necessary for reasons of 
public safety, national security, or to comply with a Federal statute. 
The bill requires the BLM Director to publish public notice of all 
pending closures and provide a detailed report to Congress before, or 
in certain cases, no later than 30 days after, a closure. Under the 
bill, closures would be limited to six months unless specifically 
enacted into law by Congress.
    Currently, any determination to close public lands to recreational 
shooting activities is made by the BLM local or State Office following 
detailed analysis and extensive public involvement and notification, 
including contacting over 40 hunting and fishing interest non-
government organizations, as specified in the Federal Land Hunting, 
Fishing and Shooting Sports Roundtable Memorandum of Understanding 
(MOU). For example, in 2010 the BLM made a decision to close the 
70,000-acre Agua Fria National Monument near Phoenix to recreational 
shooting in order to protect sensitive cultural and biological 
resources. This was accomplished with the support of the Shooting 
Sports Roundtable, the Arizona Game and Fish Department, and local 
recreationists, in conjunction with a decision to enhance opportunities 
to allow recreational shooting on the adjacent 900,000 acres of public 
lands outside the Monument. H.R. 3440 strips local BLM managers of 
their ability to make such closure decisions at a local level, 
dismisses the time and effort contributed by members of the public who 
participate in the public planning process, and shifts responsibility 
thousands of miles away in Washington to the BLM Director and to 
Congress.
    H.R. 3440 also removes all existing recreational shooting 
restrictions or closures in National Monuments under BLM jurisdiction. 
Enactment of the bill could result in the automatic repeal of all 
current closures and restrictions for recreational shooting, even those 
that are the result of collaborative resource management plans 
developed with extensive public input. Any such blanket repeal of 
closures may jeopardize public safety and property. The bill makes no 
reference or exception to restrictions or closures consistent with 
State laws or local regulations which may restrict recreational 
shooting. This could undermine local cooperative relationships in rural 
areas where BLM Law Enforcement Rangers work closely with Counties.
    The effects of the bill are far-reaching, and could potentially 
jeopardize public safety on the public lands. Consider, for example, a 
BLM Field Manager who is evaluating whether to establish a restriction 
or closure to recreational shooting to reduce the risk of wildfire from 
ammunition strike. Recent examples of such public land wildfires 
initiated by recreational shooting include the 12,000-acre Lakeside 
fire that occurred this past summer 45 miles west of Salt Lake City, 
Utah, with an estimated suppression cost of $800,000. In addition in 
2009 the Sand Hollow fire in Idaho burned 864 acres of public land and 
caused over $400,000 in damages. The risk of wildfire from recreational 
target shooting is real and local Field Managers should have every tool 
available to them, including permanent, temporary, or seasonal 
closures, to manage resources and reduce the likelihood of wildfire and 
protect communities and resources at the local level.
    Under H.R. 3440, regardless of on-the-ground conditions, only the 
BLM Director in Washington could issue such a closure. Furthermore, 
under the bill, such closures would cease after six months, never to be 
issued again--even to prevent wildfires--unless Congress approves the 
closure by enacting it into law. Providing for public safety should not 
be a temporary, six-month consideration in public land management.
Conclusion
    H.R. 3440 establishes a remote and unwieldy framework for the 
management of nearly five million acres of public land--thus tying the 
hands of a multiple-use land management agency striving to provide for 
public safety with timely responses to on-the-ground conditions, 
informed by local input.
    The BLM looks forward to continuing its work with the Congress and 
stakeholders in promoting and facilitating safe recreational shooting 
opportunities on lands administered by the BLM. Thank you for the 
opportunity to present testimony on H.R. 3440. I would be glad to 
answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Ms. Recce on 919.

STATEMENT OF SUSAN RECCE, DIRECTOR, CONSERVATION, WILDLIFE AND 
         NATURAL RESOURCES, NATIONAL RIFLE ASSOCIATION

    Ms. Recce. Thank you, Mr. Chairman, for inviting me to 
testify. I can make this short and sweet.
    The NRA supports H.R. 919. It has been some 13 years, as 
was stated previously, since the community of Bullhead City 
lost its shooting range on BLM land. The required NEPA work has 
been completed. And it is time to move forward to build this 
much-needed range.
    I will point out that several years ago Congress passed a 
similar bill which accelerated the transfer of BLM land in 
Nevada to Clark County for a shooting range, 3,000 acres of BLM 
land. And so this is not breaking new ground. But NRA does 
fully support it. Thank you.
    [The prepared statement of Susan Recce follows:]

   Statement of Susan Recce, Director of Conservation, Wildlife and 
      Natural Resources, National Rifle Association, on H.R. 3440 
 ``Recreational Shooting Protection Act'' and H.R. 919 ``Mohave Valley 
                         Land Conveyance Act''

    Mr. Chairman, thank you for the opportunity to appear today in 
support of enactment of H.R. 3440 and H.R. 919, two bills that are 
necessary for the present and future protection and enhancement of 
recreational shooting on federal public lands.
    Recreational shooting is a historic, traditional and legitimate 
activity on lands managed by the Bureau of Land Management (BLM). 
Thousands of NRA's members and unaffiliated hunters and shooters depend 
upon informal and formal places to shoot on BLM lands, especially in 
the western states where their communities are surrounded by federal 
lands.
    People need places to go not only for the sheer enjoyment of target 
shooting, but also to teach family members and friends the safe and 
responsible use of firearms. Hunters need places to practice 
marksmanship skills and to sight-in their hunting rifles.
    In its most recent management plan for a national monument, the BLM 
acknowledged that the need for places to shoot is growing as the 
interest in this recreational activity expands, but that urban 
encroachment on private lands is making it difficult to find places to 
target shoot. The plan noted that the population growth and subsequent 
urbanization of the American West has caused edges of property to 
become closer, the outskirts of communities more crowded, remote areas 
fewer, and closures to recreational shooting more common.
    In response to these demographic changes, the BLM's preferred 
alternative in the management plan for the Sonoran Desert National 
Monument (AZ) is to close the entire 500,000-acre monument to 
recreational shooting. The release of the Sonoran Desert plan followed 
on the heels of BLM's announcement that it was intending to close the 
entire Ironwood Forest National Monument (AZ) to recreational shooting.
    H.R. 3440 is needed to stop this progression of monument closures 
by the BLM. There is no restriction against recreational shooting in 
any Act that has designated specific BLM lands as national monuments. 
However, the BLM has taken it upon itself to declare that recreational 
shooting should be excluded from national monuments.
    BLM managers have been open about this discriminatory and anti-gun 
attitude in the press. The Ironwood Forest manager stated that closing 
the monument was ``an appropriate management choice.'' The Sonoran 
Desert manager told the press that ``The monument's not an appropriate 
place to have recreational target shooting.'' Both statements were made 
during the public comment period which not only prejudiced the review 
process, but signaled that monument closure was a conclusion BLM 
intended to reach regardless of public comment received. In neither 
management plan was consideration given to leaving open any of the 
scores of sites that had long been used by target shooters.
    The Ironwood Forest and the Sonoran Desert are just two national 
monuments that BLM has closed. Excluding Sonoran Desert which is still 
in the planning stage, the BLM has closed nearly 1.3 million acres to 
the shooting public in recent years.
    The BLM has stated that the designation of a national monument 
requires a greater level of resource protection. But resource 
protection is not the real issue. The real issue is that the BLM is 
choosing not to recognize and manage shooting as a legitimate 
recreational activity and is using the designation of national monument 
as a means to escape this management responsibility.
    Safety has also been used as an excuse for closures. In justifying 
the closure of Ironwood Forest, a BLM spokesperson said that the 
agency's desire was to promote a safe environment for all visitors. 
This statement was made in spite of the incontrovertible fact that 
recreational shooting has one of the lowest incidents of injuries and 
deaths of any recreational activity conducted on public lands.
    Target shooters would also like to recreate in a safe environment, 
but no environment can be safe for any visitor unless BLM steps up to 
its management responsibilities. In the face of a documented need to 
find safe places for the public to shoot, BLM's response is to be an 
advocate for more closure.
    The BLM justifies closures by stating that there are millions of 
acres of public lands remaining open for target shooting. However, none 
of the monument plans has ever evaluated the impact of land closures on 
access (travel distance and roads) and opportunities for the displaced 
shooters. None of the plans has ever analyzed the impact of forcing 
shooters onto other lands and how the increase in shooters would affect 
the safe use of sites elsewhere.
    It is clear that the BLM is using the designation of national 
monument to eliminate a recreational activity it does not want to 
manage. In my opinion, the BLM is keeping other lands open to 
recreational shooting until such time as it can find an excuse or 
opportunity to close them. Right now, the agency believes that national 
monument designation gives them carte blanche to close vast acreages to 
recreational shooting.
    Closing public lands to shooters thrusts management 
responsibilities upon the states and other federal land agencies to 
respond to what the BLM so pointedly acknowledges as the need to find 
places to accommodate the growing number of people who enjoy target 
shooting. H.R. 3440 is necessary to end BLM's prejudicial treatment of 
recreational shooting and to manage this recreational activity with the 
same attention it gives to all other recreational activities on public 
lands.
    In turning to H.R. 919, the NRA fully supports the legislative 
transfer of certain BLM-managed lands in Mojave County to the Arizona 
Game and Fish Department for the purpose of building a public shooting 
facility. This will not be the first time that a transfer of BLM lands 
for such purpose has been legislated by Congress. Congress previously 
transferred 3,000 acres of BLM land to Clark County, NV to create a 
shooting park. It has been 14 years since the community of Bullhead 
City lost its shooting range. The required NEPA work has been completed 
on the new site. H.R. 919 is intended to get the spade in the ground to 
build the much-needed shooting range and the NRA supports the sponsor's 
intent to make that happen.
    This concludes my remarks. Thank you, again, for the opportunity to 
testify on two bills of importance to hunters and recreational 
shooters.
                                 ______
                                 
    Mr. Bishop. Thank you. As I understand none of the others 
have testimony on 919. So we will turn to the Committee if they 
have any questions. I will allow the Ranking Member to go 
first, if he wishes to.
    Mr. Grijalva. Yes, let me. Mr. Ratcliffe, thank you. Can 
you talk to us about the current status of the Mohave land 
conveyance, and what has happened with Arizona Game and Fish in 
this last year?
    Mr. Ratcliffe. Yes, sir--
    Mr. Grijalva. Also under this legislation, what obligation 
would Arizona Game and Fish have to the tribes for any 
negotiated mitigation measures?
    Mr. Ratcliffe. We are very close to completion of the 
conveyance. We expect it to be completed in the spring of this 
year. We have been working with Arizona Game and Fish closely 
on a number of related mitigation measures with the tribes, 
including closure during certain ceremonial times
    So, I think we are very close. We are now--the conveyance 
itself is sitting with the Arizona Game and Fish Department for 
finalizing the conveyance.
    Mr. Grijalva. And the sufficiency language, that would 
exempt Arizona Game and Fish from litigation if they fail to 
provide any of the negotiated mitigation? Is that one of the 
areas that you pointed out?
    Mr. Ratcliffe. Yes.
    Mr. Grijalva. And that is problematic to you?
    Mr. Ratcliffe. Well, in the proposed legislation there are 
concerns that--over the mineral rights in the Santa Fe 
Railroad, as well as whether or not the tribal mitigation 
measures could be enforced.
    The other issue is that the lands, if they weren't used for 
the shooting range ultimately, there is no reversionary clause 
to allow the lands to come back--
    Mr. Grijalva. I was going to ask you about that.
    Mr. Ratcliffe. Yes.
    Mr. Grijalva. So that would--the lands would--what would 
happen if it didn't materialize into a shooting range?
    Mr. Ratcliffe. If it didn't, under the current legislation 
it remains the property of the State of Arizona.
    Mr. Grijalva. And so the areas in which you said, if this 
legislation moves forward, those are the areas that you are 
speaking of, in terms of--
    Mr. Ratcliffe. That is correct. We would like to see the--
    Mr. Grijalva. The sufficiency clause--
    Mr. Ratcliffe. Sufficiency and mitigation concerns, 
especially the tribal ones.
    Mr. Grijalva. In support of the legislation, Ms. Recce, 
those points that just--that Mr. Ratcliffe just brought up in 
response to my question, you see those as significant 
obstacles, or issues that should be dealt with?
    Ms. Recce. I think those issues need to be addressed with 
the state. I don't see them as significant obstacles--
    Mr. Grijalva. But if the legislation exempts the state from 
having to carry out any of the negotiated mitigation that we 
are talking about with the conveyance now, there is no 
empowerment to do that.
    Ms. Recce. In the past, it has been typical for these kinds 
of contracts to require the land to be reverted back to the 
Federal agency if the purpose for which it was transferred 
isn't fulfilled. But--and so, I don't see that the NRA has any 
issue if that language was put in. And I would trust that the 
state wouldn't either, because it is typical language.
    Mr. Grijalva. OK. I don't have any further questions. Thank 
you, Mr. Chairman.
    Mr. Bishop. Mr. Holt, do you have questions on this bill, 
Ms. Tsongas on this bill?
    [No response.]
    Mr. Bishop. Let me ask just a couple of questions, Mr. 
Ratcliffe, on this particular one.
    I am assuming there was a record of decision on the Mohave 
shooting range.
    Mr. Ratcliffe. That is correct.
    Mr. Bishop. When was that?
    Mr. Ratcliffe. It was earlier this year, I believe.
    Mr. Bishop. This year?
    Mr. Ratcliffe. Yes. Or was it late last year?
    Mr. Bishop. OK. Did the record of--
    Mr. Ratcliffe. February 2010.
    Mr. Bishop. 2010. Did the record of decision for the 
shooting range address mitigation?
    Mr. Ratcliffe. Yes.
    Mr. Bishop. Has there been litigation on this issue?
    Mr. Ratcliffe. No.
    Mr. Bishop. OK. With that, I have actually no other 
questions on this particular bill. With that, I appreciate the 
testimony on this bill. We ask you to stay here, because 
obviously there are some other issues that will be coming up.
    Let us turn our attention to H.R. 938 by Representative 
Poe. It is the Frank Buckles World War I Memorial Act. On this 
one, 938, I believe Mr. May, you are testifying on the part of 
the Park Service on this particular Act.

 STATEMENT OF PETER MAY, ASSOCIATE REGIONAL DIRECTOR, NATIONAL 
             CAPITAL REGION, NATIONAL PARK SERVICE

    Mr. May. Yes. Mr. Chairman, thank you for the opportunity 
to appear before the Subcommittee to present the Department of 
the Interior's views on four National Park Service bills on 
today's agenda. I would like to submit our full statements for 
these bills to the record, and summarize the Department's 
positions. And we will do that one by one.
    H.R. 938 would establish the World War I Centennial 
Commission and designate memorials to the service of men and 
women of the United States in World War I. The Department 
appreciates the sponsor's recognition of the sacrifices of 
Americans who served in World War I. The Department shares the 
sponsor's sentiment on this subject, and would like to continue 
working with the Congress on appropriate ways to recognize that 
service.
    This is an important era in American history, and that has 
been honored through a number of monuments throughout the 
nation. Unfortunately, there has been no study to determine 
which of the various World War I memorials in the United States 
would be best suited to be named as the official national World 
War I Memorial, and the bill conflicts with the Commemorative 
Works Act, which was enacted to govern the establishment and 
placement of memorials in the Nation's capital so as to protect 
existing memorials, open space, and the historic vistas of this 
iconic area.
    For these reasons, the Department has serious concerns with 
H.R. 938, and we would like to work with the Committee to 
address our concerns.
    The Department defers to the General Services 
Administration on the establishment of a World War I Centennial 
Commission, as this is a responsibility that would not fall 
under the purview of the National Park Service.
    [The prepared statements of Mr. May follow:]

 Statement of Peter May, Associate Regional Director, Lands, Resources 
 and Planning, National Park Service, U.S. Department of the Interior, 
on H.R. 938, To Establish a Commission to Ensure a Suitable Observance 
  of the Centennial of World War I and to Designate Memorials to the 
     Service of Men and Women of the United States in World War I.

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior (Department) regarding H.R. 938, a bill 
to establish a World War I Centennial Commission and to designate 
memorials to the service of men and women of the United States in World 
War I.
    The Department appreciates the sponsors' recognition of the 
sacrifices of Americans who served in World War I. The Department 
shares the sponsors' sentiment on this subject and would like to 
continue working with Congress on appropriate ways to recognize that 
service. This is an important era in American history that has been 
honored through a number of monuments throughout the nation.
    Unfortunately, there has been no study to determine which of the 
various World War I Memorials in the United States would be best suited 
to be named as the official National World War I Memorial, and the bill 
conflicts with the Commemorative Works Act (the Act), which was enacted 
to govern the establishment and placement of memorials in the Nation's 
Capital so as to protect existing memorials, open space and the 
historic vistas in this iconic area. For these reasons, the Department 
has serious concerns with H.R. 938 and we would like to work with the 
Committee to address our concerns.
    The Department defers to the General Services Administration on the 
establishment of the World War I Centennial Commission as this 
responsibility would not fall under the purview of the National Park 
Service.
    H.R. 938 would authorize the World War I Memorial Foundation 
(Foundation) to establish a commemorative work rededicating the 
existing District of Columbia War Memorial as the ``District of 
Columbia and National World War I Memorial'' by adding an appropriate 
sculptural or other commemorative element deemed appropriate to reflect 
the character of a national memorial.
    The District of Columbia War Veterans Memorial (D.C. War Memorial) 
was authorized by Congress on June 7, 1924, to commemorate the citizens 
of the District of Columbia who served in World War I. The memorial was 
funded both by organizations and citizens of the District of Columbia. 
Construction of the memorial began in the spring of 1931 and it was 
dedicated by President Herbert Hoover on November 11, 1931. It was the 
first war memorial to be erected in West Potomac Park and remains the 
only local District of Columbia memorial on the National Mall. The 
memorial is a contributing structure in East and West Potomac Parks 
entry in the National Register of Historic Places.
    The memorial was designed by Washington architect Frederick H. 
Brooke, with Horace W. Peaslee and Nathan C. Wyeth as associate 
architects, and inscribed on the base of the Memorial are the names of 
the 499 District of Columbia citizens who lost their lives in the war. 
The Memorial was designed to be used as a bandstand and is large enough 
to hold an 80-member band. Concerts were held there until May 1, 1960. 
For many years, its visitors were likely those who were there to enjoy 
its peaceful and contemplative setting. Today, as a result of the 
recent and considerable investment of American Recovery and 
Reinvestment Act funds, $7.3 million, the memorial's original material, 
landscaping and character have been restored and rehabilitated and as 
announced at its re-dedication on Veteran's Day 2011, it will again be 
the focus of District of Columbia commemorative activities. And while 
this memorial is dedicated to District residents, there have long been 
several national World War I memorials in the District that are also 
located in the prime area known as the Reserve.
    A national memorial to World War I veterans is located in Pershing 
Park, on Pennsylvania Avenue between 14th and 15th Avenues, in 
Washington, D.C. near the White House. This memorial, constructed by 
the Pennsylvania Avenue Development Corporation and the ABMC, includes 
a statue of General Pershing, as well as artwork detailing the major 
battles in World War I that involved U.S. troops. This commemorative 
work represents all who served in that conflict. Quotations on this 
existing World War I Memorial include General Pershing's tribute to the 
officers and men of the American Expeditionary Forces of World War I 
and a commemoration of those who served in the United States Navy in 
World War I. Veterans of World War I are also honored by the 1st 
Division and 2nd Division Memorials, also located near the White House.
    Just a few blocks from these World War I memorials, H.R. 938 would 
effectively supplant the intent of the D.C. War Memorial's sponsors who 
lived through that war, the citizens and organizations of the District, 
who advocated for and funded this memorial to honor their family 
members, friends and neighbors who served and died in World War I. 
Superimposing another subject on an existing memorial, particularly if 
new features are added, is an encroachment prohibited by the 
Commemorative Works Act. Moreover, adding this new commemoration 
contradicts the Act's concept of the Reserve, which honors the National 
Mall as a completed work of civic art where no more memorials are to be 
placed. Section 8908 of the Act precludes the addition of new memorials 
in the Reserve, defined as the great cross-axis of the Mall, from the 
United States Capitol to the Lincoln Memorial, and the White House to 
the Jefferson Memorial.
    In addition, H.R. 938 exempts this proposal from key provisions 
that are at the heart of the Commemorative Works Act. If a new memorial 
is proposed, Section 8905 of that Act requires the site and design for 
the new memorial be developed in a public process, first obtaining the 
advice of the NCMAC and then obtaining approvals by the National 
Capital Planning Commission and the U.S. Commission of Fine Arts.
    The site for the Liberty Memorial at the National World War I 
Museum, in Kansas City, Missouri, was dedicated in 1921. The ceremony 
was attended by over 200,000 people, including General John J. 
Pershing, General John J. Lejeune, Ferdinand Foch, Admiral David 
Beatty, and military leaders from Belgium, Italy, and Serbia. In 1926, 
President Calvin Coolidge delivered the keynote address at the 
Memorial's dedication. The memorial and surrounding grounds were 
completed in 1938. The 108th Congress designated the museum at the base 
of the Liberty Memorial as the ``National World War I Museum of the 
United States.''
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
                                 ______
                                 

 Statement of Peter May, Associate Regional Director, Lands, Resources 
 and Planning, National Park Service, U.S. Department of the Interior, 
on H.R. 1278, A Bill to Direct the Secretary of the Interior to Conduct 
 a Special Resource Study Regarding the Suitability and Feasibility of 
Designating the John Hope Franklin Reconciliation Park and Other Sites 
  in Tulsa, Oklahoma, Relating to the 1921 Race Riot as a Unit of the 
             National Park System, and for Other Purposes.

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on H.R. 
1278, a bill to direct the Secretary of the Interior to conduct a 
special resource study regarding the suitability and feasibility of 
designating the John Hope Franklin Reconciliation Park and other sites 
in Tulsa, Oklahoma, relating to the 1921 Tulsa race riot as a unit of 
the National Park System and, for other purposes.
    The Department supports enactment of this legislation. However, we 
feel that priority should be given to the 37 previously authorized 
studies for potential units of the National Park System, potential new 
National Heritage Areas, and potential additions to the National Trails 
System and National Wild and Scenic Rivers System that have not yet 
been transmitted to Congress.
    The Greenwood neighborhood of Tulsa witnessed one of the most 
violent episodes of racial conflict in the early 20th century. On May 
31, 1921, a white mob entered the city's segregated African-American 
community and burned more than 35 city blocks of residences and 
businesses. Rioters destroyed approximately 70% of Greenwood's 
residential area and virtually the entire business district. An unknown 
number of people, somewhere between 36 and 300, lost their lives; more 
than 700 were injured; and nearly 9,000 African Americans were left 
homeless.
    The riot was sparked by the conflict that occurred after the arrest 
of an African-American youth, Dick Rowland. He was accused of 
assaulting a white teenaged girl in a public elevator on May 30. 
Rowland was arrested the next day, May 31, and was held in custody in 
the Tulsa County Courthouse. That evening, an angry white mob of more 
than 2,000 men confronted about 75 armed African-American men outside 
the downtown courthouse.
    When a white man attempted to forcibly disarm an African-American 
World War I veteran, a struggle ensued and a gun was fired. Almost 
immediately, members of the white mob opened fire. The African-American 
men returned the volleys and retreated from downtown to the Greenwood 
neighborhood with the armed white men in close pursuit. Within hours, 
much of Greenwood was in flames.
    Order was not restored until the following day when a special train 
carrying 110 soldiers of the Oklahoma City-based National Guard 
arrived. By then, most of the damage to property and loss of life had 
already occurred. The case against Dick Rowland was dismissed in 
September, 1921.
    The National Park Service completed a reconnaissance survey of the 
1921 Tulsa race riot in 2005. The report concluded that the riot is 
nationally significant because of the potential ability to illustrate 
and interpret a tragic and important chapter in the history of the 
United States. Despite the substantial loss of historic fabric and 
setting, key historic resources, including the Greenwood Cultural 
Center, Mt. Zion Baptist Church (listed on the National Register of 
Historic Places), Vernon Chapel African Methodist Episcopal Church, 
Greenwood Avenue, Frisco and Santa Fe Railroad tracks, and the site of 
the Royal Hotel have survived.
    The John Hope Franklin Reconciliation Park is an important element 
in a memorial of the 1921 Tulsa race riot. The reconciliation park, 
established in 2001, tells the story of African Americans' role in 
building Oklahoma and contributes to a more full account of Oklahoma's 
history. It is named for John Hope Franklin, who was born in Oklahoma 
in 1915 and graduated from the then-segregated Booker T. Washington 
High School. Franklin went on to graduate from Harvard University and 
became a noted historian and writer. He died in 2009.
    Collectively, these resources warrant further study for ways to 
memorialize and interpret this tragic chapter in American history.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                                 ______
                                 

 Statement of Peter May, Associate Regional Director, Lands, Resources 
 and Planning, National Park Service, U.S. Department of the Interior, 
  on H.R. 2240, To Authorize the Exchange of Land or Interest in Land 
 Between Lowell National Historical Park and the City of Lowell in the 
         Commonwealth of Massachusetts, and for Other Purposes.

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 2240, a bill to authorize the exchange of land or interest in land 
between Lowell National Historical Park and the city of Lowell in the 
Commonwealth of Massachusetts, and for other purposes.
    The Department supports enactment of this legislation. H.R. 2240 
would enable Lowell National Historical Park to acquire land by means 
of exchange with public entities and to continue beyond 2018 the 
successful use of the Preservation Loan Fund to help finance the 
restoration and redevelopment of historic structures. Both of these 
provisions would facilitate the park's long-term goals without 
requiring any additional appropriations.
    Public Law 95-290, enacted in 1978, established Lowell National 
Historical Park to preserve and interpret the city's nationally 
significant historical and cultural sites, structures, and districts 
associated with the city's role in the 19th Century American industrial 
revolution. Along with the park, the law established the Lowell 
Historic Preservation Commission to complement and coordinate the 
efforts of the park, the Commonwealth, and local and private entities 
in developing and managing the historic and cultural resources and to 
administer the Lowell Historic Preservation District. The law 
established an arrangement that requires a high level of cooperation 
between the Federal, Commonwealth, and local governments, and the 
private sector. The General Management Plan (GMP) and the Lowell 
Preservation Plan were designed to be supportive of local government 
preservation and community development efforts and to encourage 
substantial private investment in the redevelopment of the city's vast 
19th-century urban resources.
    Over the past three decades, the park and the commission have 
played a key role in the city's revitalization. Working in cooperation 
with the city, Commonwealth, and other public entities and private 
partners, the National Park Service has contributed to the 
rehabilitation of over 400 structures and the creation of extensive 
public programs to preserve and interpret the city's cultural 
resources. An estimated $1 billion in private investment has occurred 
within the park and preservation district since the creation of the 
park. To date, 88 percent of the 5.2 million square feet of vacant mill 
space within the park and preservation district has been renovated or 
is in the process of being renovated in accordance with the Secretary 
of the Interior's Standards for the Treatment of Historic Properties.
    Because of changes in the vicinity of the park as these 
preservation and redevelopment efforts have occurred, the National Park 
Service would like to shift the use, management, or ownership of some 
park lands in order to facilitate their redevelopment for other uses. 
The park's maintenance facility and visitor center parking lot sites, 
which are not historic, have been identified by the University of 
Massachusetts--Lowell, and the City of Lowell, respectively, as 
critical to their master plan redevelopment programs. The university 
and city seek to acquire these sites from the park, have proposed to 
develop them in ways consistent with the mission, intent and purposes 
of the park, and have expressed a willingness to work with the park to 
help facilitate the equitable exchange and relocation of these 
facilities. The park's September 2010 GMP Amendment specifically 
recommended the Visitor Center Parking Lot exchange with the city. The 
University's request to exchange the park's maintenance facility came 
after the GMP, but is in the park's long-term interest. The National 
Park Service supports the exchange of both the Visitor Center Parking 
Lot and the park's maintenance facility.
    Under current law, the park has authority to acquire property from 
the Commonwealth or its political subdivisions only by donation. H.R. 
2240 would give the park the authority to acquire land by exchange from 
the Commonwealth, the city of Lowell, or the University of 
Massachusetts Building Authority. This authority would enable the park 
to conduct both proposed land exchanges. The legislation ensures that 
if the value of land to be acquired by the park is lower than the value 
of the land exchanged, the city or Commonwealth would be required to 
make a cash payment to equalize values and the park would have use of 
those funds for the purpose of replacing exchanged facilities and 
infrastructure. At this time the National Park Service has not 
identified potential exchange properties.
    The Preservation Loan Fund was also authorized in the Public Law 
95-290 and formally established in 1983. The purpose of the fund is to 
stimulate private investment in nationally significant historic 
buildings to meet the historic preservation mandate within the Lowell 
National Historical Park and Preservation District. The law directed 
the commission to loan the funds to the non-profit Lowell Development 
and Financial Corporation, to create a revolving loan fund to 
accomplish historic preservation goals. The program has funded twenty-
one nationally significant historic building projects with loans 
totaling approximately $2.5 million. The original Federal appropriation 
of $750,000 leveraged non-federal project investments totaling 
approximately $130.3 million to date, representing over $173 in non-
federal investment for each Federal dollar appropriated.
    The Preservation Loan Fund was initially authorized for a 35-year 
period expiring in 2018. H.R. 2240 would extend the program for an 
additional 25 years. The extension of the program would enable existing 
funds to continue in a revolving fund for the purposes identified in 
the original authorization. No additional appropriations would be 
needed. Despite what has been accomplished in Lowell, numerous historic 
structures still require rehabilitation, and this program is an 
important catalyst for generating the private and non-federal funding 
needed to ensure the preservation of these structures. Extending this 
authorization would greatly enhance the park's efforts to assure the 
integrity of the park and preservation district.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or members of the subcommittee may have 
regarding H.R. 2240.
                                 ______
                                 

 Statement of Peter May, Associate Regional Director, Lands, Resources 
 and Planning, National Park Service, U.S. Department of the Interior, 
  on H.R. 2489, A Bill to Authorize the Acquisition and Protection of 
    Nationally Significant Battlefields and Associated Sites of the 
 Revolutionary War and the War of 1812 under the American Battlefield 
                          Protection Program.

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on H.R. 
2489, to authorize the acquisition and protection of nationally 
significant battlefields and associated sites of the Revolutionary War 
and the War of 1812 under the American Battlefield Protection Program.
    The Department supports H.R. 2489. This legislation would expand 
the American Battlefield Protection Program to include both the War of 
1812 and Revolutionary War battlefields in addition to Civil War 
battlefields, which are covered under the current program. It would 
authorize $10 million in grants for Revolutionary War and War of 1812 
battlefield sites, as well as $10 million in grants for Civil War 
battlefield sites, for each of fiscal years 2012 through 2022. The 
American Battlefield Protection Program is currently authorized through 
fiscal 2013.
    In March 2008, the National Park Service transmitted the Report to 
Congress on the Historic Preservation of Revolutionary War and the War 
of 1812 Sites in the United States, which identified and determined the 
relative significance of sites related to the Revolutionary War and the 
War of 1812. The study assessed the short and long-term threats to the 
sites. Following the success of the 1993 Civil War Sites Advisory 
Commission Report on the Nation's Civil War Battlefields, this study 
similarly provides alternatives for the preservation and interpretation 
of the sites by Federal, State, and local governments or other public 
or private entities.
    The direction from Congress for the study was the same as for a 
Civil War sites study of the early 1990s. As authorized by Congress, 
the National Park Service looked at sites and structures that are 
thematically tied with the nationally significant events that occurred 
during the Revolutionary War and the War of 1812. The result was a more 
thorough survey of the remaining battlefields associated with our 
nation's initial struggle for independence and sovereignty that 
represents twice the field effort undertaken for the Civil War study.
    Building upon this study, H.R. 2489 would create a matching grant 
program for Revolutionary War and the War of 1812 sites that closely 
mirrors a very successful matching grant program for Civil War sites. 
The Civil War acquisition grant program was first authorized by 
Congress in the Civil War Battlefield Protection Act of 2002 (Public 
Law 107-359), and was reauthorized through FY 2013 by the Omnibus 
Public Land Management Act of 2009 (Public Law 111-11). That grant fund 
has been tremendously successful in allowing local preservation efforts 
to permanently preserve Civil War battlefield land with a minimum of 
Federal assistance.
    With the release of the Report to Congress on the Historic 
Preservation of Revolutionary War and the War of 1812 Sites in the 
United States, communities interested in preserving their Revolutionary 
War and the War of 1812 sites can take the first steps similar to those 
taken by the Civil War advocates nearly two decades ago. If 
established, this new grant program can complement the existing grant 
program for Civil War battlefields and, in doing so, benefit the 
American people by providing for the preservation and protection of a 
greater number of sites from the Revolutionary War and War of 1812. All 
funds would be subject to NPS priorities and the availability of 
appropriations.
    The NPS is currently finalizing its update to the 1993 Civil War 
Sites report, which reviews the conditions of 383 Civil War 
battlefields, and which we plan to transmit to Congress in 2012. As 
currently drafted, H.R. 2489 requires another update of the condition 
of these same Civil War battlefields in five years, in addition to an 
update of the 677 sites of the Revolutionary War and the War of 1812 
identified in the 2007 report. The NPS feels that updating information 
for all of these sites, most of which are not within the National Park 
System itself, will not be feasible in five years. Therefore, the NPS 
suggests one change in the reporting language of the bill so that the 
reporting requirement for the Civil War update is ``not later than 10 
years after the date of enactment''.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
respond to any questions from you and members of the committee.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Mr. Fountain, I understand this is your issue as well. If 
you would speak to 938, we would appreciate it.

            STATEMENT OF EDWIN FOUNTAIN, DIRECTOR, 
                WORLD WAR I MEMORIAL FOUNDATION

    Mr. Fountain. Thank you, Chairman Bishop, Ranking Member 
Grijalva, Members of the Committee. My name is Edwin Fountain, 
I am a founding director of the World War I Memorial 
Foundation. The Foundation was founded in 2008 with two 
missions. One, to secure funding for the restoration of the 
D.C. War Memorial, which, in the eighty years of its existence 
had fallen into severe disrepair and deterioration, partly 
because it was a District memorial sitting on Federal property, 
and stewardship, or the locus of stewardship, was unclear. We 
are grateful to the Congress for passing the stimulus bill, and 
to the Park Service for allocating some of those funds, and the 
memorial is now fully restored.
    Our second mission was to advocate for rededication of that 
memorial as a national and District of Columbia World War I 
Memorial. When it was built in 1931, the D.C. War Memorial was 
the only memorial in that part of the Mall. At that time we 
didn't have national memorials, we only had local war 
memorials. Every town in the eastern part of the country had 
its own Civil War memorial. Cities and towns around the country 
had their own war memorials, which came out of World War I and 
then were expanded to include World War II, and sometimes later 
wars, as well.
    But not until the Vietnam Veterans Memorial did we have a 
truly national war memorial. And then, as Congressman Poe 
pointed out, we now have Korea and World War II. So we have, in 
effect, a de facto war memorial park in that part of the Mall 
between 17th Street and the Lincoln Memorial. There are 
memorials to the four great wars of the 20th century. Three of 
those memorials are national. There is no national war memorial 
to World War I.
    By happenstance, the D.C. War Memorial is located right 
there. The others were built up around it. And it completes the 
quartet of memorials on that part of the wall. I don't think 
anyone is opposed to--thinks that there should not be a 
national memorial to World War I. The question is where or 
which memorial should be so dedicated.
    Our view--and there are--and Mr. May suggested a study 
needed to be made of memorials around the country. I don't 
think so. There are three likely candidates: one is the Liberty 
Memorial in Kansas City; one is the D.C. War Memorial on the 
National Mall; the third is the Pershing Memorial on 
Pennsylvania Avenue. No others have been suggested, that I am 
aware of.
    None of those are perfect solutions. They all have 
drawbacks, they all have advantages. To our mind, to our--the 
Foundation's view is that to locate a national memorial to 
World War I off the National Mall, away from those other three 
national memorials to the other three great wars of the 20th 
century, would send a message that somehow we honor the 
sacrifice and service of those veterans to a lesser degree than 
we do to the other wars. There is something to be said for the 
primacy of place on the National Mall.
    I agree that the Commemorative Works Act would bar the 
establishment of a brand new memorial on the Mall. But we have 
an existing memorial. The bill is written so that it does not 
contravene the Commemorative Works Act. And I don't believe it 
does, because it is a rededication of an existing site.
    And so, our view is that the most appropriate place for the 
25 million visitors from around the country and around the 
world who come to the Mall each year is to have that national 
memorial located on the Mall next to the other three wars of 
the 20th century.
    Objections have also been raised by residents and 
representatives of the District of Columbia. Delegate Norton 
was quoted as saying that this would confiscate the D.C. War 
Memorial. Nothing of the sort.
    We anticipated this concern from day one. We reached out to 
the D.C. Council, Delegate Norton, the Mayor's office. Delegate 
Norton was a cosponsor of a previous bill in the prior 
Congress, and agreed to be an honorary trustee of our 
foundation. The D.C. Council, under the chairmanship of now-
Mayor Gray, passed a unanimous resolution in our support. Only 
recently, when some groups have linked this issue to D.C. 
statehood and D.C. voting rights, have those representatives 
chosen to change their position, which they are entitled to do.
    But our purpose all along has not been to confiscate the 
D.C. War Memorial or Federalize it in some way, but to elevate 
its status. It was--much as World War I is a forgotten war, 
this was a forgotten memorial. It wasn't until the efforts of 
my foundation and other groups such as the D.C. Preservation 
League brought national attention to this memorial did it get 
funded, did it get on the front page of the Washington Post, 
did it make the cover of Parade Magazine, and people finally 
started paying attention to it.
    Our attention has been to elevate the status, to elevate 
the recognition of the D.C. veterans, the D.C. residents who 
fought in the war, to bring more people to that memorial. It 
wasn't even on the Park Service maps. It wasn't in the guide 
books. The Park Service, frankly, treated it as a second-class 
citizen on the Mall, precisely because it was not a national 
memorial.
    And our goal all along was to elevate it to the same status 
as the other memorials so that the local memorial would be more 
prominently featured.
    And so, we think it does no disservice to the local 
memorial to rededicate it as a national and D.C. memorial. 
Thank you.
    [The prepared statement of Mr. Fountain follows:]

               Statement of Edwin L. Fountain, Director, 
              World War I Memorial Foundation, on H.R. 938

    Chairman Bishop and members of the Subcommittee:
    My name is Edwin Fountain. I am an attorney in private practice 
here in Washington, and the grandson of two World War I veterans. I am 
a co-founder and director of the World War I Memorial Foundation. I am 
pleased to appear today to testify in support of H.R. 938, the ``Frank 
Buckles World War I Memorial Act.''
    Until he passed away last year at the age of 110, Mr. Buckles was 
the last surviving American veteran of World War I. The Foundation was 
proud to have Mr. Buckles serve as its honorary chairman.
    In 2008, Mr. Buckles came to Washington for a ceremony in his honor 
at the Pentagon. During that trip he visited the District of Columbia 
War Memorial, located on the Mall between the World War II and Korean 
War memorials. He was distressed to see that it was only a memorial to 
the veterans of D.C., and not a national memorial.
    Throughout our country's history, towns and cities have erected 
their own war memorials, be they to local veterans of the Civil War, or 
of World War I, or of all the nation's wars collectively. In 
Washington, there are of course numerous memorials to generals and 
statesmen of the Revolution and the Civil War. But until the Vietnam 
Veterans Memorial was dedicated thirty years ago, there were no 
national war memorials.
    Today we have on the Mall national memorials to three of the four 
great wars of the 20th century, located in what has become a de facto 
``war memorial park'' around the Lincoln Reflecting Pool.
    There is, however, no national memorial to World War I. With the 
irony of hindsight, that war was at first called ``the war to end all 
wars.'' In retrospect, we now know that ``the Great War'' was but the 
first time that American soldiers would go overseas in defense of 
liberty against foreign aggression. Over 4.7 million Americans served 
in uniform, and 116,516 gave their lives--more than in Korea and 
Vietnam combined.
    World War I was also the first great conflict of what has come to 
be known as ``the American century.'' It led directly to the Second 
World War, and its consequences are still felt today in ongoing 
conflicts in the former Yugoslavia, Israel and Palestine, and Iraq.
    Few Americans today know this history, and the absence of a 
national memorial to World War I on the Mall in Washington has become a 
glaring omission, all the more so because the centennial of the war is 
less than three years away.
    H.R. 938 would fill that void, by authorizing the re-dedication of 
the District of Columbia War Memorial as a ``National and District of 
Columbia World War I Memorial.''
    The D.C. War Memorial was dedicated in 1931 as a memorial to the 
499 residents of the District who died in the war. President Hoover 
spoke at its dedication, and John Philip Sousa conducted the Marine 
Corps band. It stood alone for fifty years, until it was joined by the 
Vietnam Veterans Memorial, and then later by the Korean War and World 
War II memorials.
    As indicated on the attached map, together with those three other 
memorials, it comprises a quartet of memorials to the major wars of the 
20th century. Yet alone among those memorials, it lacks national 
status. Few residents or visitors are even aware of the memorial, much 
less know what it is. Most maps and signs do not even refer to the 
memorial.
    H.R. 938 would authorize its re-dedication as a national memorial, 
and thereby give honor to the veterans of World War I that is equal to 
that bestowed on the veterans of the other major wars, while helping 
future generations of Americans to know the complete history of 
American's 20th-century struggle against aggression and 
totalitarianism.
    Re-dedication of the D.C. memorial would not be contrary to the 
Commemorative Works Act. That Act prohibits the location of any new 
commemorative works on the Mall. However, H.R. 938 does not authorize a 
new commemorative work, but rather the re-dedication and enhancement of 
a memorial that already exists on the Mall.
    Moreover, the local character of the existing memorial would be 
preserved. While Section 10(b)(3) of the proposed bill permits the 
addition of an appropriate sculptural or other commemorative element, 
in order to give the memorial a national character, it also specifies 
that any such feature shall ``complement and preserve'' the existing 
memorial and its landscape. In this way the sacrifice of District 
residents in the war will continue to be honored, and the peaceful and 
secluded character of the site will be preserved.
    We emphasize that H.R. 938 is not meant to somehow ``federalize'' 
the District's memorial. Rather, it will bring attention to the 
memorial by elevating it to the same status enjoyed by the surrounding 
war memorials. At the same time, the memorial will provide visitors a 
lesson in the history of our memorials, while calling their attention 
to their own memorials back home.
    The Foundation also supports the designation of the Liberty 
Memorial in Kansas City as a national World War I memorial. While it 
may be unconventional to have two national memorials, there is no 
reason why there cannot be two, and there is every reason to 
commemorate a profound national event such as World War I more widely, 
rather than less.
    Finally, the Foundation supports the provisions in H.R. 938 to 
establish a World War I centennial commission.
    Twenty-five million people, from around the country and across the 
world, visit the Mall each year. As we have heard from thousands of 
students, veterans and citizens around the country who support our 
cause, those visitors expect to honor the nation's veterans in the 
nation's capital--as evidenced by the location of the other great war 
memorials in Washington.
    Congress would be minimizing the sacrifice of Frank Buckles and 
almost five million other Americans in World War I, including 116,000 
dead, if it did not honor them on the Mall in the same manner as the 
veterans of the wars that followed.
    We ask the House to pass H.R. 938. On behalf of the Frank Buckles 
family and the Foundation, thank you for the opportunity to testify 
today.
                                 ______
                                 
    Mr. Bishop. Thank you for your testimony, Mr. Fountain.
    Mr. Rimensnyder, if you would also like to take five 
minutes to address this issue.

STATEMENT OF NELSON RIMENSNYDER, HISTORIAN, THE ASSOCIATION OF 
       THE OLDEST INHABITANTS OF THE DISTRICT OF COLUMBIA

    Mr. Rimensnyder. Yes. Thank you, Mr. Chairman and Members 
of the Committee and ladies and gentlemen. I am Nelson 
Rimensnyder, the historian of The Association of the Oldest 
Inhabitants of the District of Columbia. Since 1865, when we 
were organized, we have been preserving and promoting the 
District's history and civic accomplishments. Our association 
is currently celebrating its 147th year of continuous service 
to the residents and civic leaders of our great city.
    We oppose the--changing the name, of making the District of 
Columbia Great War Memorial a national World War I memorial. 
And we would like to associate with the remarks of 
Congresswoman Norton, whose statement has been submitted to the 
record.
    In March of last year, a member of our association, Joseph 
Grano, wrote to the board of directors of the National World 
War I Memorial Foundation, proposing an alternative to their 
proposal, and that is looking at the Pershing Memorial, which 
is a memorial to the expeditionary forces that fought for the 
United States in Europe, and making that a national World War I 
memorial. Its location across from the visitor's center, White 
House Visitor's Center, it is in view of the White House and 
the Capitol, if you look to the east, it is a wonderful 
location. Elements could be added to make it more national in 
scope. There is a blank wall on the Pennsylvania Avenue side 
that could just be engraved with World War I--``National World 
War I Memorial.''
    Let's put Frank Buckles in there, a nice statue of Frank 
Buckles, and maybe a doughgirl, too. Because when the D.C. 
National Memorial--and other women also fought and died for the 
United States in that war.
    It is interesting that, if we look at history, there was a 
proposal to build a national World War I memorial in the 
District of Columbia in late 1920s. There was a national 
commission, they came up with a design and were raising money 
when the crash came in 1929. Congress was reluctant to put 
money up for it, because of the financial situation. Veterans 
weren't enthusiastic, because they were looking for their 
bonus, which hadn't been paid. And that site that was chosen 
was where the current National Gallery of Art is located, 
Pennsylvania Avenue and--facing both Pennsylvania Avenue and 
Constitution Avenue. And it was considered a wonderful 
location. The Mall was never even considered.
    So, why not just take a page out of history and move it 
further down the Avenue and--won't expend much money, Federal 
money involved. Maybe local money can be raised, national 
money, to make the Pershing Memorial the National World War I 
Memorial.
    I would like to also add that veterans in the District of 
Columbia--I am a veteran and there are some veterans sitting 
behind me--are very much opposed to changing the name. It is 
our memorial, and it represents our sacrifice of our citizens 
in not only that war, but all the wars we fought for without 
any representation in Congress. And so we are--veterans are 
very much opposed to changing this name.
    I would like to conclude with--Eleanor Holmes Norton, our 
delegate, has introduced a House resolution, 346. I would like 
to just read the last two parts of that. ``Resolved, that it is 
the sense of the House of Representatives that, one, the 
District of Columbia War Memorial should remain a memorial 
dedicated solely to the residents of the District of Columbia 
who served in World War I; and two, a congressionally 
authorized study or commission should determine a proper 
location for a national memorial dedicated to all Americans who 
served in World War I.''
    Thank you, Mr. Chairman, and I am available to answer any 
questions.
    [The prepared statement of Mr. Rimensnyder follows:]

 Statement of Nelson F. Rimensnyder, Historian, The Association of the 
 Oldest Inhabitants of the District of Columbia, H.R. 938, a National 
            World War I Memorial, aka The Frank Buckles Act

    Chairman Bishop, Committee Members, Ladies and Gentlemen: I am 
Nelson Rimensnyder the Historian of the Association of the Oldest 
Inhabitants of the District of Columbia. Dedicated since 1865 to 
preserving and promoting the District's history and civic 
accomplishments, the AOI is currently celebrating its 147th year of 
continuous service to the residents and civic leaders of our great 
city.
    On March 21, 2011 AOI member Joseph N. Grano wrote to the Board of 
Directors of the National World War I Memorial Foundation proposing an 
alternative to H.R. 938 and Senate Bill 253 which would establish a 
commission to ensure a suitable observance of the centennial of World 
War I and to designate memorials to the service of men and women of the 
United States in World War I. These proposals include altering the name 
of our District of Columbia War Memorial to insert the words ``and 
National'' (District of Columbia and National World War I Memorial). 
The Association of the Oldest Inhabitants of the District of Columbia 
joins with our member Mr. Grano in urging you to consider an 
alternative to the pending legislation. The portion of the legislation 
which re-names the District's memorial is wrong on several fronts, the 
most noteworthy being that it ignores the rights of the District's 
residents and the fact that it was from District residents that so much 
of the funds for the memorial were raised. Secondly, the Peristyle 
Doric Temple located in Ash Grove on the National Mall in West Potomac 
Park is the District's War Memorial, not the World War I Memorial as 
when it was dedicated in 1931 the 1914-1918 conflict in Europe was 
referred to as The Great War or simply The World War and no numerical 
suffix was ascribed to the monument.
    As Mr. Grano so eloquently points out, there is in fact already a 
national World War I memorial bearing the name of General John 
Pershing. The memorial, occupying an entire city block, is elegantly 
situated opposite the White House Visitors' Center, within a half block 
of the White House and Ellipse, closely situated to the Washington 
Monument's axis of the National Mall and holds a distinguished position 
at the western-most point of the main stretch of Pennsylvania Avenue 
within view of the Capitol.
    With a few, relatively simple architectural additions and 
additional interpretive signage, Pershing Park would make a fitting and 
appropriate venue for a `new' National World War I Memorial obviating 
the need to tamper with the District of Columbia's existing War 
Memorial in Ash Grove on Ohio Drive. In honor of Frank Buckles, a 
doughboy statue could be crafted in his image and placed at the North 
West entrance to the park--clearly visible from the 15th Street 
approach, the White House Visitors' Center and to the hundreds of 
thousands of visitors waiting to enter the White House grounds. The 
existing long, unadorned wall on the Pennsylvania Avenue side of the 
park could be boldly inscribed with, ``National World War I Memorial'' 
clearly visible from the White House Visitors' Center, the John A. 
Wilson Building and the 14th Street approach.
    While we believe the efforts of Representative Ted Poe and the co-
sponsors of H.R. 938 and Senator Rockefeller and his co-sponsors of 
Senate Bill 253, together with the initiatives of the National World 
War I Memorial Foundation are praiseworthy to help reconcile the 
misperceptions and confusion facing the National World War Memorial in 
Kansas City and our District of Columbia World War I Memorial, we 
believe strongly that simply renaming or re-designating our existing 
monument not only demeans the history of this existing memorial but, in 
fact, does not go far enough to realize the dream of a true National 
World War I Memorial in the Nation's Capital. The proponents of the 
World War II Memorial on the National Mall between the Lincoln Memorial 
and the Washington Monument, after much controversy, realized their 
dream of a truly wonderful tribute to the men and women who gave their 
service and lives during the Second World War; however, if you visit 
the Pershing Park site you will see that this existing memorial already 
contains many of the features one would want in a national memorial: a 
water feature (beautiful fountain and pool), an impressive statue of 
General Pershing, historical and interpretive information engraved on 
the stone walls, etc. The only features it is missing are the engraving 
that would distinguish it as the ``National World War I Memorial,'' a 
statue of a doughboy in honor of the military personnel who served--
like Frank W. Buckles--and recognition of the other military services' 
contributions in World War I.
    We believe these relative simple improvements to the existing 
memorial would make it worthy of being designated as the National World 
War I Memorial and by avoiding changes to either the National War I 
Memorial in Kansas City or the District of Columbia World War I 
Memorial would render controversial changes to these existing memorials 
moot.
    [Attached is a series of recent photographs which may help you 
visualize how this impressive park could be transformed into a National 
Memorial dedicated to the First World War.]
    The National Capital Memorial Advisory Commission is on record 
opposing renaming the District's War Memorial (August 2, 2011) and 
while considering Pershing Park as a worthy World War I Memorial was 
not within the scope of either Congressman Poe's or Senator 
Rockefeller's legislation, we believe together with the endorsement of 
the National Capital Memorial Advisory Commission our proposal deserves 
your consideration and support for removing references to the District 
of Columbia War Memorial and, in turn, endorsing our proposal to 
designate Pershing Park as the National World War I Memorial.
    Thank you for the opportunity for me to testify before you today.
                                 ______
                                 
    Mr. Bishop. Thank you very much. And I apologize. I 
apparently mispronounced your name. It is Rimensnyder?
    Mr. Rimensnyder. That is correct.
    Mr. Bishop. I apologize for the mispronunciation there.
    I will turn to the Committee and see if there are questions 
on this particular one. Mr. Grijalva?
    Mr. Grijalva. Thank you. Mr. May, Representative Poe's bill 
renames the District of Columbia's World War I Memorial. Could 
you please discuss what this means in terms of changing the 
nature of the current memorial?
    Mr. May. Well, what we understand the legislation to do is 
to not only rededicate the memorial, but also a memorial to 
expand its commemorative purpose. That expansion is what 
becomes a conflict with the Commemorative Works Act. The 
Commemorative Works Act states very clearly that new memorials 
should not encroach upon existing memorials or change the 
message, if you will--not quite that language, but that is the 
essential issue.
    Plus, the construction of new memorials within the area 
that is defined as the reserve is also an area of conflict. The 
reserve was defined to include the traditional Mall from 3rd to 
14th, plus the grounds of the Lincoln Memorial, Washington 
Monument, and all the way down through the Tidal Basin.
    So that area is, in the views of the Congress, a completed 
work of civic art, and new memorials should not be placed in 
that area.
    Mr. Grijalva. OK. Thank you. Mr. Rimensnyder, can you 
describe your engagement with Congressman Poe and the 
development of this legislation and/or with the World War I 
Memorial Foundation? What has been your engagement, your 
participation, your discussion?
    Mr. Rimensnyder. Our only, I guess, direct engagement is we 
did testify before the National Capital Memorial Commission, 
which Representative--Mr. Poe testified there. And Mr. Fountain 
also testified before that body.
    As I said, a member of our organization, with our support, 
did write last year, March of last year, Mr. Fountain, about 
our proposal for--considering the--designating the Pershing 
Memorial and making it a World War I memorial. And this could 
be done in time for the commemoration of the war, which is 
coming up. Time is very short, so that is another argument for 
looking at this proposal seriously.
    So, that is the extent of our engagement with these two 
gentlemen.
    Mr. Grijalva. And the response to your inquiry in March?
    Mr. Rimensnyder. I am not aware that we did, no.
    Mr. Grijalva. OK. Mr. Fountain, just for my education, are 
you aware of any instance where a local memorial like this one 
that we are discussing has been renamed to be a national 
memorial?
    Mr. Fountain. I am not, Congressman. And I recognize this 
is a unique situation. The Commemorative Works Act precludes us 
from establishing a new memorial on the Mall. As I said 
earlier, there is no perfect solution to this issue. To have it 
on the Mall, we would need to join it with the D.C. War 
Memorial. To have it off the Mall we think sends a disservice 
to--sends a message that we value the service and sacrifice of 
the World War I veterans less than we do the other wars. We are 
a victim of historical circumstance.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Holt, do you have questions on this issue?
    Mr. Holt. Yes, Mr. Chairman. First of all, Mr. May, when 
you say this would be an expansion in concept, at least, of the 
D.C. memorial, does that involve any physical changes that--an 
actual expansion, physical expansion?
    Mr. May. That is what I understand the proposals to be, 
that there would be an enhancement to expand the message that 
would go with the rededication. What it means physically has 
not been designed----
    Mr. Holt. By ``the message,'' you mean actual physical 
changes to----
    Mr. May. Yes.
    Mr. Holt [continuing]. Communicate more message?
    Mr. May. Exactly.
    Mr. Holt. I see. Mr. Fountain, is there refurbishment work 
that is needed on the D.C. memorial? Is there ongoing 
maintenance that is needed? And would this change the ability 
to accomplish those things?
    Mr. Fountain. No, sir. The restoration is complete, and a 
reopening ceremony was held on November 10th, the day before 
Veterans Day. Obviously, ongoing maintenance is required. But 
our proposal would not affect that.
    To answer your question, Mr. May, yes. The bill provides 
for the addition--for an additional commemorative element, 
which would be an additional physical feature. The bill 
specifically provides that any such addition would be 
complementary of and would preserve the existing memorial. It 
is not our intent to overwhelm the existing memorial as 
something the scale of the World War II memorial.
    We have something in mind the scale of the addition of the 
realistic sculptural element to the Vietnam Veterans Memorial, 
a statue of three Vietnam soldiers off to the side from the 
wall. That is the scale of what we are talking about, but there 
would be an additional element to the site to give it a 
national character.
    Mr. Holt. Thank you, Mr. Chairman.
    Mr. Bishop. Let me ask just a couple questions, as well. 
Mr. Fountain, if I could, why does the memorial in Kansas City 
need to be national if you envision the D.C. memorial becoming 
a national memorial?
    Mr. Fountain. Legislative compromise, Mr. Chairman. The 
objection I did not anticipate when we started this process was 
that Kansas City would surface as a proposed alternative site. 
And in the last Congress we had contending bills. And neither 
one was moving forward as long as the other could block it.
    So ultimately, we agreed that--to quote the great 
philosopher Ernie Banks from the Chicago Cubs--let's have two. 
A little unconventional to have two national memorials, but why 
not? More commemoration is better than less. And the only way 
that either bill could move forward was to join forces and to 
designate both.
    Mr. Bishop. Actually, you didn't have me until you quoted 
my favorite Cub player, so well played.
    [Laughter.]
    Mr. Bishop. Can you just tell me what the function of this 
commission that would be established would be?
    Mr. Fountain. The commission is separate and apart from the 
memorials. There is, I believe, a Civil War Sesquicentennial 
Commission. I believe there is a War of 1812 Bicentennial 
Commission. It essentially would be a congressionally chartered 
commission that would conceive and plan ceremonies, programs, 
other events to mark the centennial of the war and, you know, 
to raise public consciousness, and otherwise for the Nation to 
pay its respects to the World War I generation.
    Mr. Bishop. I am assuming from your testimony your only 
concern with the Pershing Memorial is that it is not on the 
Mall.
    Mr. Fountain. It is a difficult site, Mr. Chairman. It is 
in that busy intersection of 15th Street and Pennsylvania 
Avenue in front of the Willard Hotel, very difficult for 
pedestrian access. It is--and yes, primarily, it is not on the 
Mall.
    My main concern is that the Congress do something. If the 
Congress, in its wisdom, chooses to go with Pershing Square and 
make that the national memorial, I think that is better than 
having no national memorial. You know? Our preference, we think 
the Mall site is preferable. But if the Committee and the 
Congress decide to go with Pershing Square, you know, we would 
get behind that. I want to make that clear.
    But there is no real proposal to make that happen yet. The 
American Battle Monuments Commission and the Park Service have 
said they think of that as a national war memorial, but they 
haven't really treated it as such. And so, until there is 
another proposal that I can get behind, I am left with ours 
that is on the table.
    Mr. Bishop. Thank you. Mr. Rimensnyder, if--I am making the 
assumption, from the testimony you have had, that you believe 
that nationalizing the D.C. memorial, World War I Memorial, 
would do nothing to enhance its visibility or stature. Or would 
it? Would nationalizing it enhance its visibility and stature? 
That is the better question.
    Mr. Rimensnyder. Yes, I suppose it would. More people would 
visit it. But again, it would--I think the emphasis of visiting 
it would be that it is a national memorial, not a District of 
Columbia memorial. And that is our memorial. Members of our 
association were very involved in raising funds for it. School 
children raised funds for it. It is our memorial. And it--and 
we want it to remain our memorial.
    And, as I said, I think--and Mr. Fountain mentioned the 
difficulty of the site. It is not difficult, the site where the 
memorial is, the--to the expeditionary force on 15th and 
Pennsylvania Avenue. Tourists go there all the time. They go 
into the Visitor's Center, they go over to the White House, 
they go down to the Capitol. It is a very accessible site. And 
to say that it is not accessible, I don't buy that argument at 
all.
    Mr. Bishop. I thank you very much. This concludes the 
questions and testimony on 938. Mr. Fountain and Mr. 
Rimensnyder, if you would like to stay at the table, please 
feel free to do so. If you would feel more comfortable leaving 
the table, you are also free to do that as well, at your will.
    We will turn now to testimony on H.R. 1278 by Congressman 
Sullivan. I believe Mr. May, you are representing the 
Administration on that one.
    Mr. May. Yes. H.R. 1278 would direct the Secretary of the 
Interior to conduct a special resource study regarding the 
suitability and feasibility of dedicating the John Hope 
Franklin Reconciliation Park and other sites in Tulsa, Oklahoma 
relating to the 1921 Tulsa race riot as a unit of the National 
Park system.
    The National Park Service completed a reconnaissance survey 
of the 1921 Tulsa race riot in 2005. The report concluded that 
the riot is nationally significant because of the potential 
ability to illustrate and interpret a tragic and important 
chapter in the history of the United States. The Department 
supports the bill.
    And once again, we have a more detailed statement that has 
been submitted for the record.
    Mr. Bishop. Thank you. I appreciate that. All right, 
Representative Grijalva, do you have questions on this one?
    Mr. Grijalva. No, thank you.
    Mr. Bishop. No questions? Mr. Holt, Ms. Tsongas, on this 
particular bill? Mr. Holt?
    Mr. Holt. Help me understand how the--as it is conceived 
and proposed here--how the greatness of the historian Franklin 
would not be lost in the larger struggle, that is, that would 
be commemorated or recognized there.
    Mr. May. So your concern is that John Hope Franklin's role 
and the commemoration of him in the park might be lost.
    The--in this proposal, I don't believe that we have gone 
very far to try to establish exactly how all of this could work 
together as a national unit of the National Park system. We 
have somewhat related sites. Certainly the--all of the Tulsa 
race riot sites that have been part of the reconnaissance 
survey are related and are important. And the park is a--there 
will be a center there that kind of ties it all together. And 
with his name on the park and on the center, we believe that 
the message there would not be lost.
    It is also not clear exactly how this would be managed 
overall. In other words, there may be--it may wind up with an 
affiliated organization running some portion of this, as 
opposed to simply a straight unit of the National Park Service.
    Mr. Holt. OK, I--as you said, with his name there on the 
park. It concerns me a little bit that that is what it would 
be. And I think a great deal of thought would have to be put in 
to how to capture the breadth of John Hope Franklin's work, and 
elevate that, if this were to proceed.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I appreciate those questions. We 
will now turn to H.R. 2240 by Ms. Tsongas. I believe once 
again, Mr. May, you represent the Administration's position on 
this bill.
    Mr. May. Yes.
    Mr. Bishop. If you would, please.
    Mr. May. H.R. 2240 would authorize the exchange of land or 
interest in land between Lowell National Historical Park and 
the City of Lowell in the Commonwealth of Massachusetts and for 
other purposes. H.R. 2240 would enable Lowell National 
Historical Park to acquire land by means of exchange with 
public entities, and to continue the successful use of the 
preservation loan fund to help finance the restoration and 
redevelopment of historic structures. Both of these provisions 
would facilitate the park's long-term goals without requiring 
any additional appropriations. The Department supports the 
bill.
    And, of course, full testimony has been submitted.
    Mr. Bishop. Thank you very much. Mr.--is it--I don't know 
if I mispronounced this one, as well. Is it Baacke?
    Mr. Baacke. It is actually Baacke, but I answer to anything 
close. So I appreciate it.
    Mr. Bishop. Well, OK. I won't say, ``Hey you,'' then, but 
Mr. Baacke, from the City of Lowell, your testimony on this 
bill, if you would, please.

 STATEMENT OF ADAM BAACKE, ASSISTANT CITY MANAGER AND DIRECTOR 
   OF PLANNING AND DEVELOPMENT, CITY OF LOWELL, MASSACHUSETTS

    Mr. Baacke. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and Members of the Subcommittee. Good morning, and 
thank you for the opportunity to submit testimony in support of 
H.R. 2240 on behalf of the City of Lowell.
    Among other purposes, this legislation will grant the 
Lowell National Historical Park authority to execute mutually 
beneficial land exchanges with the City of Lowell and the 
Commonwealth of Massachusetts. The Lowell National Historical 
Park was created and empowered by Congress to preserve and 
interpret the nationally significant historical and cultural 
sites, structures, and districts in Lowell, Massachusetts.
    However, it was also granted what was then a unique mission 
to help facilitate economic and cultural revitalization in the 
city. And to impart to the tremendous record of success that 
the park has enjoyed in this, several similar parks have 
subsequently been established.
    This legislation will further the mission, intent, and 
purpose of the park in two important ways. First, it will allow 
the Lowell National Historical Park to continue its active and 
supportive participation in the Hamilton Canal District, the 
city's signature economic development project. Planned as a 
mixed use redevelopment of more than 15 acres of under-utilized 
and vacant publicly owned land, upon completion the Hamilton 
Canal District will generate nearly 2 million square feet of 
private real estate development, and create as many as 1,600 
new permanent jobs.
    This project has already rehabilitated one of the most 
visible and nationally significant mill complexes within the 
boundaries of the park, which represents an investment of $65 
million, and the creation of over 200 well-paid construction 
jobs during the depths of the recent recession.
    This project is also notable as a model for expediting 
local and state environmental and land use permitting, and the 
entire development is currently positioned to proceed by right, 
without any further discretionary local or state review.
    With the active participation and consent of officials from 
the Lowell National Historical Park, the Hamilton Canal 
District site includes the redevelopment of land currently 
owned by the park and utilized only for surface parking. The 
plan envisions redeveloping this parking lot in a manner 
consistent with the mission, vision, and general management 
plan for the park, with new commercial buildings that will 
house research and development, as well as general office 
space.
    In exchanging land presently owned by the Lowell National 
Historical Park, the Federal Government will be in a position 
to not only support the Hamilton Canal District project at no 
cost, but also will obtain interest in real property and/or 
structured parking spaces that are more consistent with the 
Park Service's immediate and long-term needs.
    This legislation is required in order for such a land 
exchange to occur, because the Lowell National Historical Park 
is currently prohibited from executing this type of real estate 
transaction with the City of Lowell.
    Second, it will extend the term of an existing revolving 
loan program that has played a key role in facilitating the 
redevelopment and restoration of over five million square feet 
of formerly vacant mill buildings to productive re-use, and has 
leveraged nearly $175 for every dollar originally invested. The 
requested extension will merely allow existing loans to 
continue to revolve within the fund to support the 
rehabilitation and preservation of additional privately owned 
historic buildings that contribute to the park. Importantly, it 
will require no new appropriation of funds.
    The City of Lowell remains tremendously grateful for the 
contributions that the Federal Government and the U.S. Congress 
have made to the renaissance of our city through the National 
Park Service. Were it not for the wisdom and past commitments 
of Congress and the National Park Service, Lowell would not 
enjoy the reputation as a model for the revitalization and 
redevelopment of smaller post-industrial cities that we do.
    This legislation will allow for the highly successful 
partnership to continue and expand at no cost to the Federal 
treasury.
    In closing, I appreciate the opportunity to testify and 
strongly encourage you to join me in supporting it. I am happy 
to address any questions you may have.
    [The prepared statement of Mr. Baacke follows:]

   Statement of Adam Baacke, Assistant City Manager and Director of 
Planning and Development, City of Lowell, Massachusetts, in Support of 
  H.R. 2240, the Lowell National Historical Park Land Exchange Act of 
                                  2011

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee on National Parks, Forests, and Public Lands, good morning 
and thank you for the opportunity to submit testimony on behalf of the 
City of Lowell, Massachusetts in support of H.R. 2240, the Lowell 
National Historical Park Land Exchange Act of 2011. Among other 
purposes, this legislation will grant the Lowell National Historical 
Park (LNHP) authority to execute mutually beneficial land exchanges 
with the City of Lowell and the Commonwealth of Massachusetts.
    The Lowell National Historical Park (LNHP) was created and 
empowered by Congress ``to preserve and interpret the nationally 
significant historical and cultural sites, structures, and districts in 
Lowell, Massachusetts.'' It was also granted a then unique mission to 
help facilitate the economic and cultural revitalization of the city of 
Lowell. Due in part to the tremendous record of success that the LNHP 
has enjoyed in this, several similar parks have been established in the 
decades since. This legislation will further the mission, intent, and 
purpose of the LNHP in two important ways.
    First, it will allow the LNHP to continue its active and supportive 
participation in the Hamilton Canal District, the City's signature 
economic development project. Planned as a mixed-use redevelopment of 
more than 15 acres of underutilized and vacant publicly-owned land, 
upon completion the Hamilton Canal District will generate nearly 2 
million square feet of private real estate development, create as many 
as 1600 new permanent jobs, and serve as a testament to the success of 
the nation's first urban national park. This project has already 
rehabilitated one of the most visible and nationally significant mill 
complexes within the boundaries of the LNHP, which represented an 
investment of $65 million and the creation of over 200 well-paid 
construction jobs during the depths of the recent recession. The 
project is also notable as a model for expediting local and state 
environmental and land use permitting; the entire development is 
currently positioned to proceed ``by right'' without any further 
discretionary local or state review.
    With the active participation and consent of officials from the 
Lowell National Historical Park, the Hamilton Canal District site 
includes the redevelopment of land currently owned by the park and 
utilized only for surface parking. The plan envisions redeveloping this 
parking lot in a manner consistent with the mission, vision, and 
General Management Plans for the park with new commercial buildings 
which will house research and development as well as general office 
space. In exchanging land presently owned by the LNHP, the Federal 
Government will be in a position to not only support the Hamilton Canal 
District project at no cost but also obtain interest in real property 
and/or structured parking spaces that are more consistent with the Park 
Service's immediate and long-term needs.
    This legislation is required in order for such a land exchange to 
occur because the Lowell National Historical Park is currently 
prohibited from executing this type of real estate transaction with the 
City of Lowell or any political subdivision of the Commonwealth of 
Massachusetts.
    Second, it will extend the term of an existing revolving loan 
program that has played a key role in facilitating the redevelopment 
and restoration of over 5 million square feet of formerly vacant mill 
buildings to productive reuse and leveraged nearly $175 for every 
federal dollar originally invested. The requested extension will merely 
allow existing loans to continue to revolve within the fund to support 
the rehabilitation and preservation of additional privately-owned 
historic buildings that contribute to the park. Importantly, it will 
require no new appropriation of funds.
    The City of Lowell remains tremendously grateful for the 
contributions that the Federal Government and U.S. Congress have made 
to the renaissance of our city through the National Park Service. Were 
it not for the wisdom and past commitments of Congress and the National 
Park Service, Lowell would not enjoy our reputation as a model for the 
revitalization and redevelopment of smaller post-industrial cities. 
This legislation will allow this highly successful partnership to 
continue and expand at no cost to the Federal Treasury.
    In closing, I appreciate the opportunity to testify on this 
legislation and strongly encourage you to join me in supporting it. I 
am happy to address any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you very much. I turn to the Committee 
for questions. Mr. Grijalva? Mr. Amodei? Mr. Holt?
    Mr. Holt. I do have questions, but I would yield to the 
gentlelady from Massachusetts first.
    Mr. Bishop. That is fair. Ms. Tsongas?
    Ms. Tsongas. Thank you, Mr. Chairman. Dr. May, I would like 
to address the issue a little bit of the land exchange, one 
most immediately around the parking--the surface parking lot, 
but also looking forward to the Commonwealth.
    Isn't it true that most other national parks already have 
the authority to undertake land exchanges such as H.R. 2240 
would grant to the Lowell National Historical Park?
    Mr. May. I believe that is typical, yes.
    Ms. Tsongas. And what are the criteria that any proposed 
exchange would have to meet in--to be considered?
    Mr. May. Well, it always has to be an equal exchange or 
approximately equal exchange. In some cases, an exchange may 
involve the United States receiving something of greater value 
than they are exchanging in return. In those circumstances it 
is done with an acknowledgment by the exchanging partner that 
the greater value that has been received by the government is, 
in fact, a donation. So, the government always is--receives 
equal or greater value.
    Ms. Tsongas. And those requirements would be accommodated 
in this proposed legislation?
    Mr. May. Yes.
    Ms. Tsongas. And wouldn't such a transfer in this instance 
add to the economic development of Lowell, as well as advance 
the park's mission?
    Mr. May. Absolutely. We believe that.
    Ms. Tsongas. So, in actuality, this provision really just 
helps improve the flexibility for local agencies to make 
decisions that would best help the city and the park removing 
some of the regulatory burden that brings the park and the city 
here today.
    Mr. May. That is right.
    Ms. Tsongas. And then, Mr. Baacke, I would like to ask you, 
too. If you could, just talk a little bit about the 
preservation loan program, the kinds of projects that it has 
been so instrumental in advancing.
    Mr. Baacke. Yes, thank you. The Preservation Loan Fund, 
although not a significant amount of money was originally 
invested, has actually touched a substantial number of 
buildings in downtown Lowell that are now fully restored as a 
result of that investment.
    They generally fall into two categories: one, our smaller, 
main-street-type commercial buildings; and the other are larger 
mill complexes. And in each case it is unlikely that these 
projects would have been able to proceed, absent that Federal 
support.
    Ms. Tsongas. And given that they are also very critical to 
protecting the architectural heritage of the Industrial 
Revolution, in essence the private sector is taking on the 
preservation efforts and encouraged to do so by this 
preservation program.
    Mr. Baacke. That is absolutely correct.
    Ms. Tsongas. So, as a result, we have seen tremendous 
investment in very expensive projects that have helped protect 
this tremendous heritage and adaptive re-use as well, knowing 
that these buildings cannot function as they were originally 
designed. And yet I happen to live in one, a mill that was home 
to a textile industry that now is a beautiful place for many 
different kinds of people to come and live and contribute to 
the city.
    So, you see over and over again how critically important 
this loan program has been to making sure that we address the 
mission of the park, and we also contribute to the economic 
development of the city.
    So, I thank you all for being here. And with that I yield 
back.
    Mr. Bishop. Thank you very much. I--oh, Mr. Holt, did you 
have questions on this bill?
    Mr. Holt. Yes, I do, Mr. Chairman. Thank you. I have 
visited the Lowell historic site and find it most impressive. 
And it really is a testament to the vision of Paul Tsongas, 
really a Janus-like vision that helps us look forward by 
looking backward. And it really is a wonderful recognition of 
the innovation and industry on which America has been built. I 
would say only slightly tongue in cheek that it is perhaps 
second in importance only to the Patterson National Historical 
Park, recently dedicated in Patterson, New Jersey.
    I would like to ask a question, Mr. Baacke, to understand 
better the preservation loan program. I understand from the 
sponsor, from Ms. Tsongas, that the bill--there is some urgency 
in getting this reauthorization, because the loans would have 
to stop without this. Please explain that, because we have got 
five years until the expiration, as I understand it. So what is 
the urgency here? Why would the lending stop now, if we don't 
proceed with this?
    Mr. Baacke. Thank you. That actually--you are entirely 
correct, that the current authorization has five years 
remaining on it. The difficulty is when you are doing real 
estate development and lending. And to real estate development, 
five years is about the minimum amount of time that anyone 
would make a loan or be able to take on a loan with a project.
    And in order for all the funding to be back and be 
available from the program to return to the treasury, as is now 
required at the end of the current term, no new loans can be 
made at this point.
    It is also important to note that there is almost no money 
available in the program anyway, because all of it is actually 
out doing its job at the moment.
    Mr. Holt. Good. Well, thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I really don't have a question on 
this, because I--Tsongas has done a good job on this particular 
bill.
    I do want to say one thing to Mr. May. It is one of the 
offhanded comments you made in here, that the Federal 
Government, with the land exchanges, especially government-to-
government land exchanges, always has to get equal or greater 
value is an arrogance that is offensive. The idea that the 
Federal Government can't give to another level of government, 
it has to get something of equal value or greater value, I 
don't care what kind of scoring you have to have on that, that 
is a horrendous policy. And it is not your fault, but it is the 
fault of the mindset that we have within the agencies of 
government. And that is something that I just find abhorrent. 
It is not a problem with this bill, it is a problem with the 
agency. So take it back there and fix it.
    With that, we end the discussion of this particular issue. 
I wish to turn to H.R. 3440 of Mr. Flake at this particular 
time, and talk about that one.
    I believe, Mr. Ratcliffe, you have the Administration's 
position on this one.
    Mr. Ratcliffe. Yes. Thank you again. Finally, regarding 
H.R. 3440, the BLM strongly supports the goal of promoting 
opportunities for outdoor recreation, including recreational 
shooting on America's public lands.
    The BLM is responsible for the protection of resources and 
multiple-use management of our nation's 245 million acres of 
public land, a vast majority of which are open to recreational 
shooting. The BLM estimates that over 98 percent of BLM-managed 
public lands are open to recreational shooting, and currently 
88 percent of the 4.8 million acres of national monuments 
managed by BLM are open.
    Restrictions on recreational shooting are determined 
through extensive analysis as part of BLM's land use planning 
process, which is informed by local public input. Typically, 
recreational shooting closures include administrative sites, 
campgrounds, and other developed facilities, certain areas with 
intensive energy, industrial, or mineral operations, and lands 
near residential or community development, or lands with 
significant and sensitive natural or cultural resources.
    When lands are closed to public--to recreational shooting, 
those restrictions are often implemented to comply with state 
and local public safety laws and ordinances, or are implemented 
at the request of local communities or other adjacent private 
land owners.
    The BLM's multiple-use mission is best achieved when land 
management issues are handled locally through its site-specific 
planning and public involvement process. Since H.R. 3440 would 
overturn this critical local management structure, and because 
the bill also could potentially jeopardize public safety and 
our ability to protect resources, we oppose this measure.
    Under H.R. 3440, only the BLM director in Washington could 
issue a closure for any reason, including something as locally 
specific as on-the-ground fire conditions in a national 
monument. Furthermore, under the bill such closures would cease 
after six months, unless Congress approves the closure by 
enacting it into law. Providing for public safety should not be 
a temporary six-month consideration in public land management.
    H.R. 3440 also removes all existing recreational shooting 
restrictions or closures in national monuments under BLM 
jurisdiction. Enactment of the bill could result in the 
automatic repeal of all closures and restrictions for 
recreational shooting, even those that are the result of 
collaborative resource management plans developed with 
extensive public input. Any such blanket repeal of closures may 
jeopardize public safety and property.
    Thank you for the opportunity to present testimony today. I 
would be glad to answer any questions you may have.
    Mr. Bishop. Thank you.
    Ms. Recce, to this bill?
    Ms. Recce. Thank you, Mr. Chairman. I really appreciate the 
opportunity to testify today on behalf of the NRA in support of 
H.R. 3440.
    Recreational shooting is a historic, traditional, and 
legitimate activity on lands managed by the BLM. Thousands of 
NRA members and unaffiliated hunters and shooters, especially 
in the Western States, depend upon places to shoot on public 
lands. People need places to go, not only for the enjoyment of 
target shooting, but also to teach family members and friends 
the safe and responsible use of firearms. And hunters need 
places to practice marksmanship skills and to sight in their 
hunting rifles.
    BLM has acknowledged that the need for places to shoot is 
growing, and that the population growth and subsequent 
urbanization of the American West has caused edges of property 
to become closer, outskirts of communities more crowded, remote 
areas fewer, and closures to recreational shooting more common.
    But what has been BLM's response? The Agency is proposing 
to close another national monument to shooters, the 5,000-acre 
Sonoran Desert National Monument in Arizona. This follows on 
the heels of NRA's announcement last fall that it was closing 
the Ironwood Forest National Monument, also in Arizona, to 
shooters. Excluding the Sonoran Monument, which is still going 
through the planning stage, BLM has closed nearly 1.3 million 
acres of monument lands to the shooting public.
    There is no restriction against recreational shooting in 
the Antiquities Act used by Presidents to designate national 
monuments. But the BLM is using the designation to close these 
lands to recreational shooting. H.R. 3440 is needed to stop the 
progression of monument closures.
    BLM managers have been open about this discriminatory and 
anti-gun attitude. One manager publicly stated that closing 
Ironwood Forest was an appropriate management choice, and 
another told the press that the Sonoran Desert was not an 
appropriate place to have recreational target shooting. Both 
statements were made during the public comment period on each 
of the management plans, signaling that monument closure was a 
conclusion BLM intended to reach, regardless of public comment 
received. In neither management plan was consideration given to 
leaving open any of the scores of sites that had long been used 
by target shooters.
    BLM has stated that the designation of a national monument 
requires a greater level of resource protection, but resource 
protection is not the issue. The real issue is that BLM is 
choosing not to recognize and manage shooting as a legitimate 
recreational activity, and is using monument designation as a 
means to escape this management responsibility.
    Safety has also been used as an excuse. In justifying the 
closure of Ironwood Forest, BLM said its desire was to promote 
a safe environment for all visitors. This statement was made in 
spite of the incontrovertible fact that recreational shooting 
has one of the lowest incidents of injuries and deaths of any 
recreational activity allowed on public lands.
    BLM will say that there are a million acres of public lands 
remaining open for target shooting, but none of the monument 
plans evaluated the impact of land closure on access and 
opportunities for the displaced shooters. None of the plans 
analyzed the impact of forcing shooters on to other lands, and 
how the increase in numbers of shooters would affect the safe 
use of sites elsewhere.
    Closing public lands to shooters thrusts management 
responsibilities upon the states and other Federal land 
agencies to respond to the growing number of people who enjoy 
target shooting. H.R. 3440 is necessary to end BLM's 
prejudicial treatment of recreational shooting, and to manage 
this activity with the same attention it gives to all other 
recreational activities on public lands.
    That, Mr. Chairman, concludes my remarks on the bill. Thank 
you very much.
    Mr. Bishop. Thank you. We will now turn to questions from 
the Committee on this bill. Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Ratcliffe, you 
already answered one of my early questions, which was how much 
land, monument land, is available for recreational shooting.
    Let me ask you about the Flake bill. The bill permits the 
closure and restriction of national monument lands by the BLM 
for specific reasons, including national security and public 
safety. This authority, as indicated in the legislation, is 
limited to six months, unless Congress makes that closure 
permanent.
    If the BLM closes certain lands at the request of, let's 
say, Homeland Security, local or state law enforcement agency, 
or other Federal law agencies such as DEA, what authority do 
you have to maintain any restrictions beyond the six months on 
this legislation?
    Mr. Ratcliffe. The only authority we have would reside in 
endangerment and laws specifically for the use of firearms that 
endanger others. Those laws only can be enforced if an incident 
is witnessed, and that means actually shooting across the road, 
other state laws that apply. Waterways, and so forth.
    Mr. Grijalva. And what about publicizing the closure or 
restriction? If law enforcement agencies state that it is in 
the interest of national security, public safety, that the 
closure restriction not be publicized for its length, what 
would your agency do?
    Mr. Ratcliffe. It would be extremely difficult for us to 
manage recreational shooting or other activities on the public 
lands. We need to have--it is important that we have local 
public input into the development of these management plans.
    Mr. Grijalva. OK. Hypothetical. Let's say a state law 
enforcement agency approaches BLM. And say that they have 
credible information that certain lands within the national 
monument may be used in connection with a crime, and request 
that you restrict or close that area to firearms for the 
duration of their investigation. They state that this 
investigation could last up to a year, and that the release of 
any information is going to jeopardize their confidential 
informant that is giving them the information.
    So, under the legislation as proposed by Mr. Flake, what 
would you do?
    Mr. Ratcliffe. We would be unable to comply. And we would 
not be able to close the area for recreational shooting.
    Mr. Grijalva. And Ms. Recce, your testimony talks about the 
recreational shooting closures at Ironwood, the Ironwood 
National Monument, the Sonoran Desert National Monument. You 
intimated that the managers have already decided that those 
closures prior to a public process--let me ask you. Was the NRA 
involved in the Udall Institute's conflict resolution process 
addressing shooting issues that started in 2002? And were they 
involved at all in that citizens process that went on?
    Ms. Recce. I don't know. I will have to find out. I know 
that in the 1990s NRA was involved related to Forest Service 
land in the Tucson Rod and Gun Club closure, and----
    Mr. Grijalva. Yes, that question will be a little later.
    From the list of the committee members, there were two 
members specifically--as of 2004, specifically representing 
NRA. And the reason I ask that is that, given that there was 
some involvement by NRA, didn't some of the process feed into 
the Ironwood Forest National Monument planning process?
    In other words, didn't everybody included in the NRA know 
that local land management agencies, Arizona Game and Fish, and 
community members were looking at recreational shooting issues 
throughout the entire Tucson basin?
    Ms. Recce. The answer is yes. In fact, NRA was actively 
involved during the planning process for the Ironwood Forest 
National Monument. We had a lot of members, even board members, 
involved in this process. Early on we raised a concern with BLM 
over the plan itself, because it essentially gave only two 
options: either leave the monument completely open to 
recreational shooting, or close the monument completely. And we 
weren't supporting the entire monument being open. It really 
was a black and white proposal, which really is not a fair and 
thoughtful plan.
    We were told that they would go back, BLM would go back to 
the board and take a look at this. And you know, it was all of 
a sudden, you know, four years later, last fall, that the final 
plan comes out the way it did.
    Mr. Grijalva. I am going to have other questions.
    Mr. Bishop. Thank you. Time is expired; we may have other 
rounds of questions afterwards.
    Mr. Holt, do you have any questions?
    Mr. Holt. I would be happy to yield my time to Mr. 
Grijalva.
    Mr. Bishop. Mr. Grijalva?
    Mr. Grijalva. Thank you. Mr. Ratcliffe. I asked Ms. Recce 
about the local collaborative process. Can you explain who 
initiated that conflict resolution that was facilitated by the 
Udall Institute, and when they did so? Just so we can have that 
on the record.
    Mr. Ratcliffe. It was BLM-initiated, in coordination with 
interested parties around the Tucson area.
    Mr. Grijalva. OK. And describe for the Committee the 
process local BLM managers went through at Agua Fria, Ironwood 
Forest National Monument, Sonoran Desert National Monument to 
evaluate recreational shooting opportunities. What was that 
survey's process, the inventory, the evaluations that went on?
    Mr. Ratcliffe. BLM takes very seriously the opportunity to 
provide recreational shooting opportunities on BLM lands, and 
we do so extensively.
    In the case of Ironwood, Agua Fria, and Sonora, Sonoran 
Desert, we went through an extensive evaluation process as part 
of the land use management planning process, as part of the 
resource management plan. In all cases, the entire monuments 
were evaluated for opportunities for recreational shooting, 
where resources could be protected and safety ensured.
    In the case of Agua Fria, we even worked with Ms. Recce in 
the field to attempt to identify locations that might be 
available within Agua Fria, and we compromised on the fact that 
the surrounding 900,000 acres of Agua Fria would largely remain 
open to recreational shooting. And, in fact, are today.
    The opportunity for us to provide quality management of 
these lands is extremely important, because these are national 
monuments with significant cultural and natural resources. And 
if the legislation were enacted, unfortunately areas like 
Pompey's Pillar in Montana would be open to target shooting, 
and that is where the only physical evidence of the Lewis and 
Clark expedition is, is that William Clark's signature is on 
the rocks there. And it is only 51 acres, but we would not be 
able to enforce a closure there for longer than 6 months.
    And similarly, San Jacinto National Monument in Palm 
Springs, over 50,000 people live within a few miles of the 
border of Santa Rosa San Jacinto National Monument, and that 
too would be open for----
    Mr. Grijalva. Yes, and that committee process that went on 
under--since 2002, staff from my office were there, staff from 
Mr. Kyl's office was there, observing the process. And the 
reason I ask that is that under Flake's legislation, when local 
land managers, communities such as the one that I live in--
which we are talking about with regard to Ironwood and 
Sonoran--they work together, they come up with some suitable 
compromises, they come up with some areas for shooting, and 
mutually identify what areas of concern shouldn't be, and come 
to some conclusion.
    Under this legislation, what would happen to that process?
    Mr. Ratcliffe. It has turned on its head. Basically, this 
legislation would protect recreational shooting above all other 
uses and/or recreational uses, and put both resources and 
public safety at risk. It takes the decision-making capability 
of the local land manager away and back to Washington, D.C., 
and would make it extremely difficult to manage for unforeseen 
concerns, such as wildfire and other----
    Mr. Grijalva. And the six-month issue makes a blanket 
legislative policy for the entire Nation.
    Mr. Ratcliffe. That is correct, for all our----
    Mr. Grijalva. Regardless of circumstances, regardless of 
situations on the ground, and, quite frankly, regardless of 
community opinion.
    Mr. Ratcliffe. Correct. We could implement six-month 
closures which would expire unless Congress enacted 
legislation.
    Mr. Grijalva. Yield, yield back, Mr. Chairman.
    Mr. Bishop. Thank you. Thank you. Ms. Tsongas, you have 
questions on this bill? Mr. Amodei?
    Mr. Amodei. Thank you, Mr. Chairman. Mr. Ratcliffe, could 
you describe for me briefly what fuels management efforts the 
BLM has undertaken in national monuments such as the ones you 
have been discussing today? We are talking a lot about public 
safety and wildfire.
    Mr. Ratcliffe. Correct----
    Mr. Amodei. And I have got five minutes, so you have been 
doing this longer than me, so----
    Mr. Ratcliffe. I will try to be----
    Mr. Amodei [continuing]. Fire fast, please.
    Mr. Ratcliffe [continuing]. Be brief. We have enacted some 
seasonal closures for campfires, let's say, and/or other 
activities, such as recreational target shooting, in high-fire 
danger areas. There are other national monuments and national 
conservation areas that we have done so, especially with a lot 
of cheatgrass and dry fields in the summer.
    Mr. Amodei. But have you done any fuels management?
    Mr. Ratcliffe. Yes.
    Mr. Amodei. Removing fuel in national monument areas?
    Mr. Ratcliffe. Yes. There is--as you know, cheatgrass is 
not a native species, and there has been a great deal of 
effort, particularly in Sonoran, on restoration of native 
species----
    Mr. Amodei. So----
    Mr. Ratcliffe [continuing]. And the elimination of----
    Mr. Amodei. So you are actively managing fuels in these 
national monument areas----
    Mr. Ratcliffe. Yes----
    Mr. Amodei [continuing]. As well as using the restrictions?
    Mr. Ratcliffe. As best we can.
    Mr. Amodei. What--OK. How is the budget for managing fuels? 
Since you said, ``as best we can,'' can you give me a little 
more definition to that?
    Mr. Ratcliffe. The Agency, along with the Forest Service 
and others, manages fuels as Congress allows, as far as 
appropriations.
    Mr. Amodei. OK, fair enough. I appreciate that. You get 
lightning over these monuments from time to time, right?
    Mr. Ratcliffe. Correct.
    Mr. Amodei. You have any information that indicates how 
often you get a fire in national monuments in the United States 
via Mother Nature versus recreational shooting?
    Mr. Ratcliffe. The vast majority of fire starts are either 
lightning caused or human caused by other activities, such as 
campgrounds and fires.
    Mr. Amodei. OK, thank you. Now, you have talked about your 
local process and that, and I appreciate that. Is there any--
has there ever been any thought to giving those folks in the 
local process, whether it is public safety, whether it is local 
land use managers--state, city, or county--actual authority in 
terms of your records of decision? Or do your records of 
decision ultimately rest with those district managers?
    Mr. Ratcliffe. Records of decision rest with the district 
managers and the state directors. The state--the national 
director has oversight of all NEPA decisions.
    Mr. Amodei. Well, I guess my point and my frustration here 
is I don't disagree with some of your points. But ultimately--
and I am new here, but you know, this has been accused of a do-
nothing partisan outfit and blah, blah, blah. And so here is a 
bill that--you know, you have got some good points.
    But it frustrates me to see you coming in and saying, ``OK, 
we love the local land use planning process in this state in 
Arizona,'' and so, you know, it's like, well, why not come in 
and suggest something that enfranchises, you know, the fish and 
game director of Arizona, who must sign off on this, or the 
local planning folks who must sign off.
    Ultimately, at its core, the authority here to decide is 
made by that district manager and that state director, who, 
while I have great respect for many of those in my state, 
ultimately are elected by no one in the State of Nevada, and in 
this instance the State of Arizona.
    Do you have any thoughts on--since your statement is pretty 
strong on our local--would you be willing to give part of that, 
you know, process in generating these records of decision a 
veto or a must-approve to somebody at the local or state level 
in these instances?
    Mr. Ratcliffe. BLM complies with the National Environmental 
Policy Act, which requires close coordination with local 
entities, as well as input from the public----
    Mr. Amodei. And I know that.
    Mr. Ratcliffe [continuing]. Have relationship----
    Mr. Amodei. I understand that. But I am aware of no law 
that prohibits you from executing a local memorandum of 
understanding saying, ``We won't go forward with this without 
your sign-off.'' You willing to do something like that?
    Mr. Ratcliffe. We have--we can enter into a cooperative 
agency status with other local entities and interests.
    Mr. Amodei. So is that something that this Committee should 
explore, as a potential partial solution to all or nothing? 
Because I agree with you with sending stuff to Washington--no 
offense to the people here--but ultimately, I also find it 
incredible to believe that there isn't perhaps occasionally 
input from the Department of the Interior or from Mr. Abbey and 
his staff down to those state folks, as--and I expect that, I 
am not saying that is an evil thing.
    But to come in here and say, you know, ``We don't want this 
Washington involvement'' I think ignores the reality that 
Interior and the Bureau here in D.C. obviously are free to and 
often, you know, exercise that.
    So, I will just end with this. While I appreciate some of 
the points you are making, it probably provides nothing in the 
way of solution to say, ``Leave it the way it is, because 
obviously there is a concern that has brought it to cause the 
bill to be introduced.'' So it is like all my way or all the 
existing way or not the new way. It would be refreshing to see 
somebody come in and go, ``Here is how we fixed some of our 
biggest concerns. And if you want more local input, here is how 
we do it.''
    But anyhow, I appreciate your candor. Thank you. And I 
yield back, Mr. Chairman.
    Mr. Bishop. Thank you. Let me ask a couple of questions 
myself on this one. Mr. Ratcliffe, have any of the management 
plans for any national monument ever evaluated the impact of 
land closures on access and opportunities for displaced 
recreational shooters?
    Mr. Ratcliffe. They take into consideration other public 
lands and opportunities that exist for all types of 
recreational activities, and the uniqueness that the particular 
monument may serve in a particular recreational----
    Mr. Bishop. I appreciate that. But have any of those plans 
ever considered the impact on the closure for the access of 
opportunity?
    Mr. Ratcliffe. In Ironwood specifically, we recognized the 
fact that other closures, including Arizona state-owned public 
lands, are closed to shooting. In that particular case we also 
have worked extensively with the state to provide shooting 
opportunities at 63 ranges across Arizona that are managed by 
the Arizona Game and Fish Department.
    Mr. Bishop. Ms. Recce, do you think the BLM national 
monuments are the only Federal lands where this approach of the 
Flake bill is needed?
    Ms. Recce. I would say that the congressman's bill was 
introduced in reaction to a unwritten policy by BLM that 
national monuments are not places for recreational shooters. I 
have not seen this sort of wholesale closure like this on other 
BLM lands.
    We do have our issues and differences related to management 
or non-management of recreational shooting elsewhere on BLM 
lands. But in terms of a mindset and a policy on closures, it 
has really been focused on national monuments.
    Mr. Bishop. Have you seen the same thing in national 
forests?
    Ms. Recce. No. We have our issues with the national forest 
on specific areas, but not wholesale closure of national 
forests to recreational shooters.
    Mr. Bishop. Thank you. I appreciate that. Thank you for 
your testimony on this bill.
    Let us move now to H.R. 2489, by Representative Holt. If I 
could ask, I believe--who gets this one, Mr. May? You have the 
Administration's approach on this?
    Mr. May. Yes. Thank you, Mr. Chairman. H.R. 2489 would 
authorize the acquisition and protection of nationally 
significant battlefields and associated sites of the 
Revolutionary War and the War of 1812 under the American 
Battlefield Protection Program.
    This legislation would expand the American Battlefield 
Protection Program to include both the War of 1812 and 
Revolutionary War battlefields, in addition to Civil War 
battlefields, which are covered under the current program. It 
would authorize 10 million in grants for Revolutionary War and 
War of 1812 battlefield sites, as well as 10 million in grants 
for Civil War battlefield sites, for each of the Fiscal Years 
2012 through 2022. The American Battlefield Protection Program 
is currently authorized through Fiscal Year 2013. The 
Department supports this bill and suggests one change in the 
reporting language, as stated in our testimony. And that 
concludes our statement, and there is a more detailed statement 
in the record.
    Mr. Bishop. Thank you very much. Mr. Holt, I understand--or 
I would appreciate it if you would introduce to the Committee 
Mr. Fischer.
    Mr. Holt. Thank you, Mr. Chairman. It is my pleasure to 
introduce to the Subcommittee Professor David Hackett Fischer. 
Professor Fischer is often credited with playing a pivotal role 
in reviving popular and academic interest in American history 
and its lessons for the present. He is the Earl Warren 
Professor of History at Brandeis University, the author of 
widely acclaimed books, including ``Historians' Fallacies,'' 
``Albion's Seed,'' ``Paul Revere's Ride,'' ``The Great Wave,'' 
``Liberty and Freedom,'' and is also the winner of the 2005 
Pulitzer Prize for History for his book, ``Washington's 
Crossing,'' which many call a masterpiece. I am particularly 
fond of it, because it hinges on historical events that took 
place in Central New Jersey.
    Professor Fischer's credentials as a historian and author 
and an advocate make him well-qualified to speak on the 
benefits of historic preservation. He looks at large issues and 
ideas of history, freedom, liberty, the cultural currents that 
have made America. He is no stranger to the political 
contention that sometimes is encountered in historical work, 
including fights over monuments and such.
    Although today I am sure he will elevate the discussion, I 
think he will find not contention and opposition, but, I hope, 
broad support and good feeling about this legislation.
    I thank Professor Fischer for coming to speak on behalf of 
the American Battlefield Protection Program Amendments Act.
    Mr. Bishop. Mr. Fischer, you are recognized for five 
minutes.

 STATEMENT OF DAVID HACKETT FISCHER, UNIVERSITY PROFESSOR AND 
     EARL WARREN PROFESSOR OF HISTORY, BRANDEIS UNIVERSITY

    Dr. Fischer. Thank you very much for inviting me here, Mr. 
Chairman. And Rush Holt, thanks to you for the leadership you 
have taken with everybody else who has become a cosponsor of 
this legislation. I have submitted written testimony, and will 
be brief here today.
    The short of it is we need help on Revolutionary War 
battlefields. Rush Holt summarized the quantitative evidence, 
much of it very carefully compiled by the National Park Service 
and other groups. There is another study that was done 20 years 
ago by Howard Peckham which reinforces all that. He found that 
there were something like 1,300 battles in the American 
Revolution, 1,300. And a good many of them are not merely lost, 
they can't be found. We don't know where they happened.
    And one thing that could happen with support of this sort 
is that we could identify more of these places, which could 
have very important local connections for others who actually 
live in the neighborhood. The--I won't go over the numbers that 
have--that establish the dimensions of the problem, but I would 
like to say a few more things about the--some of the 
qualitative issues here.
    It is the case that a good many of the most important 
battlefields in the American Revolution are very much in 
trouble, or have been damaged or severely fragmented or the 
other sorts of problems that are mentioned here.
    One of them, for example, is the fighting on the day of 
Lexington and Concord, the first day of the war, and the 
Lexington Green and Concord's North Bridge are very carefully 
protected and preserved. But the heaviest fighting on that day 
that really made a difference for people at the time happened 
not in those towns, but to the east, from Lexington east to 
Cambridge, and then to Charles Town. And very little of that 
has been protected. Some of it still has possibilities on open 
land. And if anything, the conditions there are getting worse.
    It is the same for the fighting around New York in 1776, 
and for Trenton and at Princeton. The Princeton battlefield is 
in danger, as are both the first and the second battles of 
Trenton. The second battle that happened on the 2nd of January 
is almost totally neglected, not even in the other general 
surveys of this.
    It is the same for Philadelphia campaigning and the most 
important battlefield is Brandywine. And it is on the top of 
the list of endangered sites from the National Park Service. In 
the fighting around Saratoga, one of the important battles was 
the Battle of Bennington, very close to that small Vermont town 
that is now thriving and growing. But the battle itself 
actually happened just across the state line in New York, and 
the result is that it has been an orphan. It is difficult, even 
to find the battlefield today. And it has been much neglected.
    And I could run through all the campaigns in the American 
Revolution, and we find this problem recurring again and yet 
again. And we have seen what difference this sort of 
legislation can make for the Civil War. I very much hope that 
that precedent will be applied to the Revolution, as well.
    One might ask, ``Why are these sites important?
    And I would like to testify to that, as a teacher. That is 
what I mainly am. And I have just finished my 99th semester in 
the classroom. And I can testify that some of my students 
really love history, and some of them really don't. And when I 
try to ask why they go one way or another, what I find is that 
the students who are really engaged in history, before they 
come into my classroom, have been taken to these sites. Their 
families have gone on the ground. And that makes all the 
difference. So much of history is an effort of imagination. And 
when young people get on the ground, suddenly they discover 
that others have walked that earth before them, and it has an 
impact.
    I have four or five long stories that are in my written 
report, and I won't tell the stories here again. But we have 
witnessed this many times over on the field.
    At the same time that we have got problems, we also have 
opportunities. As people are getting more interested in 
history, they are becoming more concerned about these problems. 
And the concerns have deepened just recently in the past few 
years because so many of these sites that had maintenance funds 
have been zero-funded in the last few years. History 
maintenance funds, I think, are some of the first to be cut in 
these difficult moments.
    But people are getting concerned, and they have also been 
doing something on their own about this, not so much on the 
sites, but on trails. Trails are cheaper than sites. It is 
easier to construct a trail. And they have been constructed 
with extraordinary dimensions.
    There is a trail that runs to the--mainly to the Battle of 
Kings Mountain, which was the scene of a major battle at the 
very end--almost at the end of the Revolution. And what the 
trail does is to follow the route that the militia took who 
converged on that battlefield. And the total length of all of 
those trails is approximately 180 miles. And it is going to 
grow beyond that. And it engages dozens of counties in five 
Southern States, a huge catchment area. And many of the 
counties and the local communities take great pride in their 
connection with those trails.
    The same thing is happening on an even larger scale with 
the Washington-Rochambeau Trail, which is now in the process of 
creation. That one covers 680 miles, following the routes of 
the French and the American Continental Armies at the end of 
the war. And again, it is knitting together a great many 
communities.
    There is another set of trails, it is the Star Spangled 
Trails, which are in and around the City of Baltimore for the 
War of 1812. In fact, there are 24 trails within that network. 
And that is just three of many examples.
    But there is a problem with those trails. The problem is 
that the sites are not developed or protected along the trails. 
And the sites are critical to the--as the anchors of the trails 
themselves. And they--the trails have turned up many more sites 
and problems of that sort. This legislation could make a major 
difference, reinforcing those local efforts.
    There are----
    Mr. Bishop. Mr. Fischer, you are significantly over time. I 
need you to summarize, if you would, please.
    Dr. Fischer. Sure. I will just add one last thought, which 
is that it is very important, I think, that all of this is done 
with the provision of willing sellers that is written into the 
legislation. And the bill, I think, has been very well thought-
out in that way.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Fischer follows:]

           Statement of David Hackett Fischer on H.R. 2489, 
       The American Battlefield Protection Program Amendments Act

Introduction: An Accelerating Problem
    Thank you for inviting me to appear before you today. I am here to 
speak in support of a new bill for the acquisition and protection of 
nationally significant battlefields and associated sites of the 
Revolutionary War, the War of 1812, and the Civil War, under the 
American Battlefield Protection Program.
    On July 10, 2008, I was in this room to support an earlier version 
of the bill, ``The Revolutionary War and War of 1812 Battlefield 
Protection Act,'' It passed the House of Representatives with many 
sponsors from both parties, and nearly unanimous support.
    With every year that goes by, this legislation grows more urgent. 
We continue to lose sites and historic buildings in many states. 
Leaders of the National Parks Conservation Association estimated on 
January 19, 2012 that ``every year this nation loses more than 1 
million acres,'' of historic sites associated with the Civil War, 
American Revolution, and War of 1812.
    The National Park Service has surveyed 825 ``nationally 
significant'' battlefields and associated sites for the American 
Revolution and the War of 1812. Of that number it finds that 107 have 
been lost, another 245 are in poor or fragmentary condition, and 22 are 
in danger of destruction in the next ten years.
    The rate of loss is accelerating. Sites now presently endangered 
include some of the most important events in the history of the 
American Revolution. Among them are sites of fighting on the day of the 
day of Lexington and Concord in 1775, the fighting around New York at 
Pell's Point and other places in 1776, the Delaware crossing on 
Christmas night in 1776; the first battle of Trenton on December 26, 
1776, the second battle of Trenton on January 2, 1777, the battle of 
Princeton on January 3, 1777, the Forage War in New Jersey from January 
to March in 1777, and Howe's East Jersey campaign against Washington in 
the spring of 1777, the battle of Brandywine in September 1777, and 
many more. These were not minor or marginal events. They were the major 
campaigns. Some of these sites are now at risk, but might be preserved 
and protected at least in part if we can act decisively.
    These endangered sites are located on open land in suburban or 
exurban areas around our cities and large towns. As urban growth begins 
to revive after the great recession, real estate development is picking 
up again, and the loss of historic sites will increase with it, unless 
we find a way to deal with it.
    Some of these losses are the inevitable price we pay for economic 
growth, which is fundamental to the health of this great republic. But 
even as development continues, we could protect some of the most 
important sites, and this legislation would make a major difference 
that way.
    The existing Civil War Battlefield Protection Program was already 
done so, with much success. It has helped to preserve 17,000 acres of 
historic sites. In many cases, it did so with matching grants that 
extended the reach of the program, while limiting costs. It has also 
operated effectively on the principle of acquisition from ``willing 
sellers'' only. Prior experience with the use of eminent domain for 
historic sites, as at Minuteman Historic Park in the 1950s, clearly 
demonstrates the wisdom and even the necessity o a ``willing seller'' 
rule.
Growing Interest in Historic Sites
    Today, even as dangers to historic sites are increasing, so also 
are our opportunities for their protection and preservation--and in 
several ways. One factor is that more people who taking an interest in 
the American Revolution, and in historic sites.
    During the past two decades we have seen a growth of interest in 
history generally, after a period in the late 20th century when the 
trend had moved in the opposite direction. Before 1990, history books 
disappeared from bestseller lists, history enrollments declined both in 
undergraduate and graduate programs. Historical and patriotic 
organizations tended to lose members. The popular culture of that 
period turned away from the American past. In the universities the 
movement called postmodernism denied the possibility of historical 
truth.
    Since about 1990, these trends reversed. One of the most 
interesting tendencies was a sudden surge of interest in the American 
Revolution and the War of Independence, without benefit of 
anniversaries or commemorations. Part of it grew from the success of 
new books on the American Revolution. A leading example was David 
McCullough's excellent biography of John Adams--a massive work, on an 
improbable subject, for a runaway best seller. Many other dense and 
academic books about the American Revolution reached a large reading 
public, to the surprise of their authors.
    Clearly there is a new public for history today. Those of us who 
write history know about it because our readers write to us and tell us 
who they are and why they care. They are people in mid-career. They 
were not history majors in college. Many of them are in the knowledge 
business--the old professions, the new digital disciplines. They work 
with complexity, and their skills require rigor, and they came to 
history that spirit. They don't want it to be dumbed down, and they 
also have very little interest in academic historiography which they 
regard as the shadow of the thing and not the thing itself. Neither 
popular history or academic history serves them well. A new genre of 
history works better for them. It has the seriousness and breadth of 
inclusion of the new social and cultural history. And it also has the 
people, leaders, events, and choices. Most of all it's about people 
making choices, and choices making a difference in the world. And in 
that way, it speaks to our condition. It is also an idea of history 
that is rooted in places such as the sites that this legislation seeks 
to protect.
The Importance of Historical Sites
    This newly enlarged constituency for this history in the United 
States numbers in the millions, and the numbers are growing. But other 
millions of people are not part of it. They have little interest in 
history, and that is a problem for us all. Surveys show that people who 
don't know much about history also know little of current events. They 
are less apt to vote, or to have a sense of civic engagement. They are 
less engaged in the civic life of the republic. The question is how to 
reach these people, and to encourage an interest in history. One way to 
reach some of them is to engage in thinking about history on the 
ground.
    A few stories might suggest some of the ways in which historic 
sites can have a major impact. One place where I have seen it happening 
is in the town of Lexington, Massachusetts, along the Battle Road where 
the Revolutionary War began. We were there, on a small piece of 
preserved ground, watching a reenactment. Some in the re-enactors 
dressed as militia and others wore redcoats. A third group wore 18th 
century civilian dress--men, women and children. They call themselves 
pickets, and their job is to work the crowd, mingling among them, 
engaging individuals in informal conversations about history. One of 
these pickets was a lawyer named Miles McConnell. He stood on the edge 
of the field, between the battle road and a bike path, popular with 
families who were speeding by as the battle reenacting. We watched as a 
family of bikers came by, outfitted in lycra bodysuits and 
intergalactic helmets, bike helmets on the edge of the battle field. 
One of the children noticed first. He screeched to a stop and came over 
to the Miles McConnell, the picket, and they started to talk--the child 
in his galactic biking helmet and Miles McConnell in a cocked hat. A 
volley was fired and the child was fascinated. The parents came biking 
over, and a crowd began to gather listening with close attention to 
Mile McConnell. The old stories were new to them and they learned about 
them on the ground with interest and even a sense of wonder. Their bike 
trip suddenly became a journey of discovery. And a history that might 
have been learned painfully in a classroom was absorbed effortlessly on 
an historic site, with laughter and a light touch.
    Another story. Recently my wife and I were in Charlotte, North 
Carolina on history business. Afterward, we had some time to ourselves 
and drove to National Battlefield Historic Park at Cowpens in South 
Carolina. I noted in the parking lot an unmarked black van with New 
York license plates. As we walked onto the field, we met two men, lean 
and muscular, with haircuts high and tight. They were wearing black 
combat fatigues, black jump boots, and black tee shirts that were 
inscribed ``We own the streets! NYPD.'' They were New York cops who 
worked on the sharp end in that city. Their hobby was history, 
especially the history of the American Revolution. They took a week of 
their vacation and drove several thousand miles to visit battlefields 
in the southern states. From their reading they knew the ground of 
Cowpens as intimately as the streets of their city. We learned from 
their depth of knowledge. They responded to the site in another spirit, 
as if they were on sacred ground. There is a book about that by a 
philosopher, Edward Tabor Linenthal, called Sacred Ground; Americans 
and Their Battlefields (Illinois Press, 1993). As we talked about what 
had happened on the field at Cowpens, these hard men in a very tough 
job were moved to tears by their memory of what had happened there.
    A third story is not about laughter or tears, but history in 
another key. It happened at Minuteman National Park. We were with a 
Hollywood director, and producers and a screen writer. They were full 
of high spirits and irreverent Hollywood humor. As we drove through 
Concord, they were impressed by the houses, and one of them said, you 
didn't tell us that the Revolution began in Boston's Beverly Hills. We 
talked about what had happened there, in the fighting along a country 
road. Then we walked a stretch of it, about half a mile called the 
Nelson neighborhood, past the ruins of farm house that had belonged to 
families of that name. The road was unpaved, very wide. It ran between 
stone walls that had been built in the 18th century, with ancient oak 
trees on either side of the road. The sunlight was filtered through the 
leaves It was early in the morning, after a rain the night before. The 
ground was wet and wisps of a ghostly mist were rising around us. 
Suddenly the entire group went completely silent and we walked the old 
road without a word. They knew what had happened there. But now 
suddenly they felt it. And they knew in that deeper way that others had 
walked this earth before them. That past was not a foreign country. 
That our own forbears lived there, and their lives were linked to ours. 
It came to them with the force of revelation. That's what an historic 
site can do.
Sites and Trails
    Since 2008, something else has been happening as a way of 
preserving the historic sites of the American Revolution. Mainly it is 
about the development of historic trails that link those sites 
together. It has been going on since at least 1947, when William 
Schofield and Bob Winn, a journalist and a church worker, founded 
Boston's Freedom Trail--a ribbon of red brick, 2.5 miles long, that 
connects sites for the Revolution, Early Republic, War of 1812, and the 
Civil War.
    Many other trails are now in process of development. One is 
Baltimore's Star Spangled Trails, a network of 23 trails for driving 
and walking. They follow many themes that variously center on the 
American Revolution and Early Republic, the War of 1812, Slavery and 
the Civil War, and the maritime and social and cultural history of 
Baltimore. It is one of the most ambitious of many historical projects 
in any of our cities.
    Another is the Overmountain Victory National Historic Trail. It 
centers on a single event in the War of Independence--the battle of 
King's Mountain in South Carolina on Oct. 7, 1780, where many 
backcountry militia who supported the new America republic came 
together to defeat an army that served the British Crown. The 
Overmountain Trail follows the march of the many American units who 
converged on that battle field. The result is a huge web of trails that 
stretch for 200 miles across the states of Virginia, Tennessee, North 
Carolina and South Carolina, It may eventually include parts of 
Georgia, West Kentucky and Georgia. Many people have joined together to 
make it work--private landowners, public officers, schoolchildren, boy 
scouts many more.
    One of the largest of these new history trails is the Washington-
Rochambeau-Revolutionary Route. It was given that name in the Public 
Land Management Act of 2009, and known to many people as the W3R Trail. 
This one presently runs for 680 miles through nine states and the 
District of Columbia. It follows the movements of French and American 
armies from Newport to Yorktown, and once again it brings together many 
historic sites, and communities and individual people
    All of these trails are works in progress. All have great 
strengths, devoted organizers, and a very broad base of enthusiastic 
support. All combine public and private assistance from individual 
landowners, corporations, local governments, state agencies, and 
national institutions such as the Park Service.
    But even as they combine many strengths, they also share a major 
challenge. The historic sites along the trails have presented many 
problems--more than the trails themselves. Some sites are in bad 
repair, or in danger of loss. Here again the Battlefield Bill could 
make a difference.
A Few Examples in the Countryside.
    Much of the Saratoga battlefield is carefully protected and 
maintained, as a national Historic Park. But Saratoga was the name of a 
campaign, and some very important small battles in the outcome. One of 
them was the battle of Bennington in August, 1777. It bears the name of 
a town in Vermont, but the battlefield itself is in the state of New 
York, and the site has been neglected by both states. The land is 
almost entirely unprotected, and it is increasingly at risk from the 
spread of development through that area. A grant from a National 
Battlefield Protection Program could bring the two states together in a 
common cause, and protect one of the most interesting, and appealing 
and important small battlefields in American history.
    Other rural sites are in tidewater Virginia, and were part of 
Lafayette's campaign in 1781, that preceded the larger campaign of 
Washington Rochambeau. In the months before the Yorktown campaign there 
were several small battles of large significance. Their sites have also 
been neglected. An example is the battle of Greenspring, which is very 
important for an understanding of the leadership of the Marquis de 
Lafayette and the American General Anthony Wayne. It was also an event 
that a major impact on the Continental army's sense of itself, and what 
it could do, and it taught British and Hessian leaders what they could 
not do. The National Park Service noted that this battlefield is almost 
entirely intact, but in danger of development.
    Many sites in central New Jersey were part of a campaign that has 
not yet found its historian. It happened in the spring and early summer 
of 1776, when General Howe led his troops from New York City to central 
New Jersey in an attempt to trap and destroy Washington's army. The 
result was a major campaign without a large battle--an eighteenth 
century affair of small skirmishes. In the end Howe failed to trap 
Washington and suffered serious losses. He also lost nearly half of the 
campaigning season in 1777, with disastrous results for the 
Philadelphia campaign and the Saratoga campaign that followed. It was 
also a brilliant bit of soldiering by Washington and his lieutenants. 
The two armies moved back and forth across spectacular terrain. 
Washington made effective use of a high escarpment that runs diagonally 
across the New Jersey countryside for many miles. Only a few years ago 
it was mostly open land. Today is rapidly developing. Pockets of open 
land still remain, and could draw many people to the study of history. 
The Battlefield Protection Bill could make a difference here.
Examples from an American City: Boston
    Another large-spirited program of small improvements in historic 
sites might be envisioned for the center of a major American city. Here 
are a few specific suggestions of some things that might be done with 
the help of the Battlefield Protection Program.
    Spring Lane is a small alley off Washington Street between Milk and 
Water Streets. It is dark, gloomy, and forbidding, with an air of 
danger and decay. To venture into it is to discover an old plaque that 
marks the location of a spring that was a center of settlement and town 
life in the seventeenth century. This dreary alley could be turned into 
a very attractive place that might commemorate Boston's 17th century 
beginnings in an active and engaging way. A fountain could be installed 
to represent the old spring. Lively monuments might commemorate the 
Puritan founders--men, women, and children. An outdoor cafe could be 
set there, with banks of shade plants to soften the walls, and 
imaginative lighting and music in the evening. In the summer it could 
be a cool spot on a hot day. We could convert a dirty, dreary and 
dangerous alley into an attractive and very interesting place, where 
people might be invited to reflect on the Boston's early history.
    Province Street just off the Freedom Trail from School Street, 
offers a possibility for broadening the history of the Revolution in an 
attractive way. The street takes its name from Province House, the seat 
of the Royal government in Massachusetts. In 1775 it was the official 
residence of General Thomas Gage and his American wife Margaret Gage 
who was deeply divided in her heart by the revolution. Nothing remains 
of Province House but an iron gate that led to 18th century gardens on 
its grounds, and a heavy flight of granite steps that lead up to 
Bosworth Street. One could reconstruct a small eighteenth century 
garden at the dead end of Bosworth Street. It might be about 2000 
square feet, with a monument to Boston's loyalists, the forgotten 
Americans in the War for Independence. Perhaps it could also include a 
memorial to General Gage and Mrs. Gage modelled after the Copley 
portraits. All this could be done with care, restraint, and fidelity to 
fact, but also with flair and color and imagination. One might turn a 
shabby run-down dead-end corner on the edge of Boston's former combat 
zone into a place of grace and beauty and historical interest. Once 
more the Protection Bill could lead to something very creative.
    Hanover Square is the forgotten eighteenth century name for the 
intersection of Washington and Essex Streets. It was also called the 
Elm Neighborhood, after a grove of ancient trees that had ben planted 
by the founders of Boston. In 1765 one of those elms was adopted by the 
Sons of Liberty and called the Liberty Tree. Many important events in 
the history of the American Revolution happened here, from 1765 to 
1775. The tree was cut down by a Tory mob in 1775, and for many years 
the town venerated the Liberty Stump as it was called. At present, 
nothing remains but a few old signs that are hard to find and harder to 
read, and a few scrawny locust trees. There is an open space on the 
south side of Essex Street in front of the China Trade Center. Here 
again this Bill could have an impact.
A Suggestion for Funding: a New Source of Income
    A major problem these days is about how to pay this program. The 
bill envisions expenditures of $10 million a year for Civil War sites, 
and another $10 million for the American Revolution and War of 1812 
combined. How might we pay for it?
    On the principle of ``pay as you go,'' and to win support both in 
the Congress and the country, we might build on several precedents 
which were adopted in the 1990s to support Civil War sites.
    The first precedent was set by Congress in 1992, when it authorized 
the Treasury to mint and sell Civil War commemorative coins which 
yielded a net return of $5.9 million. This money was used to buy lands 
for Civil War battlefields, and 5,200 acres were acquired.
    A second precedent came also from Congress in 1998, when it 
authorized approximately 32 million dollars in the form of grants to 
the states from Land and Water Conservation Funds to acquire and 
protect historic sites and battlefield lands in particular. These funds 
were used to acquire and protect another 11,800 acres. There grants and 
gifts were combined with matching funds which extended their reach. 
Something similar could be done to pay for the acquisition of historic 
sites and battlefields from the American Revolution and the war of 
1812.
    One could also encourage contributions that might have an added 
purpose. A model in the 19th and again in the 20th century, was a 
fundraising campaign for the preservation of USS Constitution. It 
invited schoolchildren to send pennies for the Constitution. The drive 
drew much attention, and succeeded in several ways. Many children 
contributed pennies, The example of the children inspired adults to 
pitch in. And for the children themselves, the experience of giving 
encouraged them to form a sense of identity and even ownership of the 
Constitution, and its history. It could happen again with battlefields 
and historic sites. Very small contributions could be pay large 
dividends, not only for the protection of the battlefields themselves, 
but for the preservation of the Republic in generations to come.
                                 ______
                                 
    Mr. Bishop. Thank you. Other questions? Mr. Holt? Ms. 
Tsongas?
    Ms. Tsongas. I don't have a question so much, but just to 
say that my district encompasses Concord, Massachusetts, and is 
home to the Minuteman National Historical Park. And I just 
visited there this past summer with two young members of my 
family. And Mr. Fischer and Congressman Holt, you are so right 
when you say how important it is that we be able to visit the 
places where these remarkable events took place. It makes it so 
real.
    And it is not just that we sort of become stewards of those 
places, but also we become stewards of what happened there. And 
that can be a very complex effort. But nevertheless, I think it 
is so important to us as a nation. We know that once these 
spaces are gone, they are lost forever. And with it goes our 
great personal connection to the past.
    So, just to say I think I am supportive of this 
legislation. I have seen over and over again how important it 
is that we protect our heritage. Thank you.
    Dr. Fischer. Thank you.
    Mr. Bishop. Mr. Amodei, do you have question? Mr. Holt, do 
you have questions?
    Mr. Holt. Yes. Thank you. And, you know, as I said in my 
opening remarks, I think that this is critically important for 
moving forward, not just for looking back. Some students came 
to see me in my office, and they brought me a button that says, 
``History: Now, More Than Ever.``
    Indeed, you know, if this nation is to long endure, we have 
to continually remind ourselves on how it was conceived and to 
what it is dedicated. And feeling that on the ground, as you 
say, Professor Fischer, is, I think, critically important to 
that.
    Let me ask each of you, Mr. May and Mr. Fischer, to quickly 
give some examples from the Civil War battlefield protection 
that would be the kinds of things that would be brought to the 
War of the Revolution and the War of 1812 that are really 
necessary for drawing those lessons for the future.
    Dr. Fischer. I would say one would be Fort Sumter, which 
has been made much more accessible to visitors in South 
Carolina. And it is now a major tourist magnet, easier of 
access than ever before. And just across the water is Fort 
Moultrie, a Revolutionary War site. And it could be exactly the 
same there.
    Mr. May. The--I have a few examples of grants from the 
Battlefield Protection Program, overall. Recently, Citizens for 
Fauquier County were given a grant for a project on nine 
significant Civil War battlefields, including Brandy Station, 
Cedar Mountain, Kelly's Ford, et cetera. I won't give the whole 
list.
    The program is quite extensive, and I--in terms of specific 
acquisitions, I don't have a list of those in my possession at 
the moment, but we certainly can give you a list of that.
    Mr. Holt. Well, I will just finish by thanking Mr. Fischer 
for the fine examples that you have given in your prepared 
testimony of what a difference the visit to a well-presented 
site can make, and also to thank Professor Fischer for 
mentioning the Washington-Rochambeau Trail, which is moving 
along nicely and I think will be important in this effort.
    And to all present, I am sure many of you have read the 
works of David Hackett Fischer. But if you haven't, I urge you 
to do so. Thank you.
    Mr. Bishop. Thank you very much. We have one last bill, 
3411, by Mr. Benishek.
    Mr. Ratcliffe, just tell us you like the bill.
    Mr. Ratcliffe. That is pretty much it.
    Mr. Bishop. OK, we are done.
    [Laughter.]
    Mr. Ratcliffe. All right.
    Mr. Bishop. With that, I appreciate very much the testimony 
and the patience of both the Members and the staff, and the 
participants here. Members of the Subcommittee may have 
additional questions for witnesses. And we would ask you to 
respond to those in writing. The hearing record will be open 
for 10 days to receive those responses.
    If there is no further business, once again I do appreciate 
all those who have waited and given the testimony on all these 
bills very much. If there is no further business, this 
Subcommittee stands adjourned.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
